 DEPARTMENT OF DEFENSE
AGENCY FINANCIAL REPORT
    FISCAL YEAR 2012




 FINANCIAL SECTION
This Page Left Blank Intentionally
Department of Defense Agency Financial Report for FY 2012



FINANCIAL INFORMATION

INDEPENDENT AUDITOR’S REPORT




                                                            Financial Information
                                      55
Department of Defense Agency Financial Report for FY 2012




                                                            Financial Information
                                      56
Department of Defense Agency Financial Report for FY 2012




                                                            Financial Information
                                      57
Department of Defense Agency Financial Report for FY 2012




                                                            Financial Information
                                      58
Department of Defense Agency Financial Report for FY 2012




                                                            Financial Information
                                      59
Department of Defense Agency Financial Report for FY 2012




                                                            Financial Information
                                      60
Department of Defense Agency Financial Report for FY 2012




                                                            Financial Information
                                      61
Department of Defense Agency Financial Report for FY 2012




                                                            Financial Information
                                      62
Department of Defense Agency Financial Report for FY 2012




                                                            Financial Information
                                      63
Department of Defense Agency Financial Report for FY 2012




                                                            Financial Information
                                      64
Department of Defense Agency Financial Report for FY 2012




                                                            Financial Information
                                      65
Department of Defense Agency Financial Report for FY 2012




                                                            Financial Information
                                      66
Department of Defense Agency Financial Report for FY 2012


PRINCIPAL FINANCIAL STATEMENTS AND NOTES
LIMITATIONS OF THE FINANCIAL STATEMENTS
The principal financial statements have been prepared to report the financial position and
results of operations of the Department, pursuant to the requirements of 31 U.S.C. 3515(b).
The statements are prepared from accounting records of the Department in accordance with
Office of Management And Budget (OMB) Circular No. A-136 and, to the extent possible,
U.S. Generally Accepted Accounting Principles (USGAAP). The statements, in addition to the
financial reports, are used to monitor and control budgetary resources, which are prepared
from the same records. The statements should be read with the realization that they are for
a component of the U.S. Government, a sovereign entity.

The financial statements of the Department include four principal statements listed in
Figure 2-1.

The financial statements reflect the aggregate financial posture of the Department and
include both the proprietary (Federal accounting standards) and budgetary resources of the
Department. The Department is large and complex with an asset base of $2.1 trillion, and
more than 3 million military and civilian employees on installations in every state and
around the world.

Figure 2-1. Four Principal Financial Statements
 Statement             What Information It Provides
 Balance Sheet         Reflects the Department’s financial position as of the statement date
                       (September 30, 2012). The assets are the amount of future economic benefits owned or
                       managed by the Department. The liabilities are amounts owed by the Department. The
                       net position is the difference between the assets and liabilities.
 Statement of Net      Shows separately the components of the net cost of the Department’s operations for the
 Cost                  period. Net cost is equal to the gross cost incurred by the Department less any exchange
                       revenue earned from its activities.
 Statement of          Presents the sum of the cumulative results of operations since inception and unexpended
 Changes in Net        appropriations provided to the Department that remain unused at the end of the fiscal
 Position              year. The statement focuses on how the net cost of operations is financed. The resulting
                       financial position represents the difference between assets and liabilities as shown on the
                       consolidated balance sheet.
 Statement of          Provides information about how budgetary resources were made available as well as their
 Budgetary Resources   status at the end of the period. It is the only financial statement exclusively derived from
                       the Department’s budgetary general ledger in accordance with budgetary accounting
                       rules.




                                                                                         Financial Information
                                                      67
Department of Defense Agency Financial Report for FY 2012


 Department of Defense Consolidated Balance Sheet
 Agency Wide                                                                                           Dollars in Millions
                                                                                    2012           Restated 2011
                                                                                 Consolidated      Consolidated
 ASSETS (Note 2)
 Intragovernmental:
   Fund Balance with Treasury (Note 3)                                       $        512,121.6    $          523,441.6
   Investments (Note 4)                                                               641,666.5               569,342.2
   Accounts Receivable (Note 5)                                                         1,439.6                 1,726.9
   Other Assets (Note 6)                                                                1,583.2                 1,760.3
   Total Intragovernmental Assets                                            $      1,156,810.9    $        1,096,271.0
 Cash and Other Monetary Assets (Note 7)                                                1,822.0                 1,720.3
 Accounts Receivable, Net (Note 5)                                                     11,522.4                 9,961.4
 Loans Receivable (Note 8)                                                                957.5                   814.4
 Inventory and Related Property, Net (Note 9)                                         243,299.7               242,582.0
 General Property, Plant and Equipment, Net (Note 10)                                 601,458.0               609,298.5
 Investments (Note 4)                                                                   3,255.0                 3,185.0
 Other Assets (Note 6)                                                                 66,601.2                67,714.4
 TOTAL ASSETS                                                                $      2,085,726.7    $        2,031,547.0
 Stewardship Property, Plant & Equipment (Note 10)

 LIABILITIES (Note 11)
 Intragovernmental:
   Accounts Payable (Note 12)                                                $          1,762.9    $             1,893.2
   Debt (Note 13)                                                                         952.6                    783.4
   Other Liabilities (Note 15)                                                         12,941.6                 14,231.7
   Total Intragovernmental Liabilities                                       $         15,657.1    $            16,908.3
 Accounts Payable (Note 12)                                                            19,492.0                26,103.9
 Military Retirement and Other Federal Employment Benefits (Note 17)                2,323,924.3             2,212,359.6
 Environmental and Disposal Liabilities (Note 14)                                      62,602.6                64,823.1
 Loan Guarantee Liability (Note 8)                                                         12.7                    13.9
 Other Liabilities (Note 15)                                                           36,308.1                31,308.1
 TOTAL LIABILITIES                                                           $      2,457,996.8    $        2,351,516.9
 Commitments & Contingencies (Note 16)

 NET POSITION
 Unexpended Appropriations – Earmarked Funds (Note 23)                       $             295.6   $              134.6
 Unexpended Appropriations – Other Funds                                               528,660.0              540,239.4
 Cumulative Results of Operations – Earmarked Funds                                (1,477,793.5)          (1,430,273.8)
 Cumulative Results of Operations – Other Funds                                        576,567.8              569,929.9
 TOTAL NET POSITION                                                          $       (372,270.1)   $        (319,969.9)

 TOTAL LIABILITIES AND NET POSITION                                          $      2,085,726.7    $        2,031,547.0




The accompanying notes are an integral part of these financial statements.


                                                                                           Financial Information
                                                                        68
Department of Defense Agency Financial Report for FY 2012


 Department of Defense Consolidated Statement of Net Cost
 Agency Wide                                                                                           Dollars in Millions
                                                                                    2012           Restated 2011
                                                                                 Consolidated      Consolidated
 Program Costs
 Gross Costs                                                                 $        781,731.1    $           811,635.0
   Military Retirement Benefits                                                         85,570.4               107,519.6
   Civil Works                                                                          10,967.2                13,530.1
   Military Personnel                                                                 150,330.5                153,881.4
   Operations, Readiness & Support                                                    295,704.1                314,560.0
   Procurement                                                                        130,578.8                128,572.8
   Research, Development, Test & Evaluation                                             76,772.6                79,230.9
   Family Housing & Military Construction                                               31,807.5                14,340.2
   (Less: Earned Revenue)                                                             (83,304.8)             (115,039.9)
 Net Cost before Losses/(Gains) from Actuarial Assumption
                                                                             $        698,426.3    $          696,595.1
 Changes for Military Retirement Benefits
   Losses/(Gains) from Actuarial Assumption Changes for Military
                                                                                       70,427.3               (12,369.6)
   Retirement Benefits
 Net Cost of Operations                                                      $        768,853.6    $          684,225.5




The accompanying notes are an integral part of these financial statements.


                                                                                           Financial Information
                                                                        69
Department of Defense Agency Financial Report for FY 2012


Department of Defense Consolidated Statement of Changes in Net Position, Agency Wide                                                                                             Dollars in Millions
                                  2012 Earmarked 2012 All Other            2012             2012          2011 Earmarked                 Restated 2011             2011           Restated 2011
                                      Funds             Funds          Eliminations      Consolidated         Funds                     All Other Funds        Eliminations       Consolidated
Cumulative Results Of Operations
Beginning Balances                $     (1,325,647.1) $    464,297.5 $             0.0 $      (861,349.6) $     (1,338,741.2)           $      417,826.0 $                 0.0 $         (920,915.2)
Prior Period Adjustments:
 Changes in accounting principles
 Corrections of errors                            0.0        1,005.7               0.0            1,005.7                 0.0                  (13,322.9)                  0.0            (13,322.9)
Beginning balances, as adjusted   $     (1,325,647.1) $    465,303.2 $             0.0 $      (860,343.9) $     (1,338,741.2)           $      404,503.1 $                 0.0 $         (934,238.1)

Budgetary Financing Sources:
 Appropriations used                                     347.3               730,232.2           0.0      730,579.5             206.9          747,758.5                   0.0             747,965.4
 Nonexchange revenue                                   2,785.7                   (96.3)          0.0        2,689.4           2,764.4              (24.3)                  0.0               2,740.1
 Donations and forfeitures of cash and cash
                                                          29.5                     0.2           0.0           29.7              30.3                 0.1                  0.0                  30.4
 equivalents
 Transfers(in/out without reimbursement)                (948.1)                1,081.7           0.0           133.6          (874.8)               964.0                  0.0                  89.2
 Other                                                  (132.2)                  (14.2)          0.0         (146.4)            (1.8)                 0.0                  0.0                  (1.8)
Other Financing Sources (Non-Exchange)
  Donations and forfeitures of property                      0.0                   37.5          0.0            37.5               0.3                7.3                  0.0                   7.6
  Transfers(in/out without reimbursement)                 (97.2)                  163.3          0.0            66.1            (71.7)             (75.7)                  0.0               (147.4)
  Imputed financing                                          3.4               19,731.9     14,687.2         5,048.1               2.2          19,698.3              14,076.6               5,623.9
  Other                                                   (45.3)             (10,420.4)          0.0      (10,465.7)              12.7           1,799.6                   0.0               1,812.3
Total Financing Sources                     $           1,943.1 $            740,715.9 $    14,687.2 $     727,971.8 $         2,068.5 $       770,127.8 $            14,076.6 $           758,119.7
 Net Cost of Operations (+/-)                          48,368.0              735,172.8      14,687.2       768,853.6        (11.025.6)         709,327.7              14,076.6             684,225.5
Net Change                                  $        (46,424.9) $               5,543.1 $        0.0 $    (40,881.8) $        13,094.1 $        60,800.1 $                 0.0 $            73,894.2
Cumulative Results of Operations            $     (1,372,072.0) $            470,846.3 $         0.0 $   (901,225.7) $   (1,325,647.1) $       465,303.2 $                 0.0 $         (860,343.9)

Unexpended Appropriations
Beginning Balances                                       134.6               541,194.5           0.0      541,329.1             325.2          528,479.4                   0.0             528,804.6
Prior Period Adjustments:
   Correction of Error                                     0.0                 (955.1)           0.0        (955.1)               0.0            (955.1)                   0.0               (955.1)
Beginning balances, as adjusted            $             134.6 $             540,239.4 $         0.0 $    540,374.0 $           325.2 $        527,524.3 $                 0.0 $           527,849.5

Budgetary Financing Sources:
 Appropriations received                                    1.3           736,780.9              0.0       736,782.2              16.5          775,450.0                  0.0             775,466.5
 Appropriations transferred (in/out)                      507.0             (898.3)              0.0         (391.3)                0.0            (781.2)                 0.0                (781.2)
 Other adjustments                                          0.0          (17,229.8)              0.0      (17,229.8)              (0.2)         (14,195.2)                 0.0             (14,195.4)
 Appropriations used                                    (347.3)         (730,232.2)              0.0     (730,579.5)           (206.9)        (747,758.5)                  0.0            (747,965.4
Total Budgetary Financing Sources          $              161.0 $        (11,579.4) $            0.0 $    (11,418.4) $         (190.6) $          12,715.1 $               0.0 $             12,524.5
Unexpended Appropriations                  $              295.6 $         528,660.0 $            0.0 $     528,955.6 $           134.6 $        540,239.4 $                0.0 $           540,374.0
Net Position                               $      (1,371,776.4) $         999,506.3 $            0.0 $   (372,270.1) $   (1,325,512.5) $      1,005,542.6 $                0.0 $         (319,969.9)

The accompanying notes are an integral part of these financial statements.

                                                                                                                                                                Financial Information
                                                                                                70
Department of Defense Agency Financial Report for FY 2012


 Department of Defense Combined                                                   Budgetary                     Non-Budgetary
 Statement of Budgetary Resources                                             Financing Accounts              Financing Accounts
 Agency Wide                                                               2012               2011             2012           2011
 Page 1 of 2                                                             Combined           Combined         Combined       Combined
 Dollars in Millions
 Budgetary Resources
 Unobligated balance, brought forward, October 1                     $        162,271.1 $      160,032.1 $         17.5 $          24.9
   Unobligated balance brought forward, October 1,
                                                                              162,271.1        160,032.1           17.5            24.9
   as adjusted
 Recoveries of prior year unpaid obligations                                    65,533.9         56,015.4           0.0             0.0
 Other changes in unobligated balance                                         (12,952.1)       (11,205.6)           0.0             0.0
 Unobligated balance from prior year budget
                                                                              214,852.9        204,841.9           17.5            24.9
 authority, net
 Appropriation (discretionary and mandatory)                                  792,178.8        829,461.3            0.0            0.0
 Borrowing Authority (discretionary and mandatory)                                  0.0              0.0          172.6          229.8
 Contract authority (discretionary and mandatory)                              80,486.2         75,760.9            0.0            0.0
 Spending authority from offsetting collections
                                                                              117,242.4        121,426.6           62.6            88.3
 (discretionary and mandatory)
 Total Budgetary Resources                                           $ 1,204,760.3 $ 1,231,490.7 $                252.7 $        343.0
 Status of Budgetary Resources
 Obligations incurred                                                $ 1,059,067.8 $ 1,069,218.2 $                237.2 $        326.8
 Unobligated balance, end of year:
   Apportioned                                                                115,696.1        137,148.4            1.6             0.1
   Exempt from Apportionment                                                    3,976.1          4,180.3            0.0             0.0
   Unapportioned                                                               26,020.3         20,943.8           13.9            16.1
 Unobligated balance brought forward, end of
                                                                     $        145,692.5 $      162,272.5 $         15.5 $          16.2
 year
 Total Budgetary Resources                                           $ 1,204,760.3 $ 1,231,490.7 $                252.7 $        343.0
 Change in Obligated Balance
 Unpaid obligations, brought forward, October 1
                                                                     $        454,926.2 $      458,620.6 $        569.1 $        619.4
 (gross)
 Uncollected customer payments from Federal                                   (75,184.3)       (69,766.8)         (99.9)         (97.3)
 Sources, brought forward, October 1
   Obligated balance start of year (net), before                              379,741.9        388,853.8          469.2          522.1
   adjustments
 Obligated balance, start of year (net), as adjusted                           379,741.9        388,853.8          469.2          522.1
 Obligations incurred                                                        1,059,067.8      1,069,218.2          237.2          326.8
 Outlays (Gross)                                                             (979,889.9)    (1,016,898.9)        (264.5)        (375.3)
 Change in uncollected customer payments from                                   (2,769.1)        (5,417.5)          16.4           (2.6)
 Federal Sources
 Recoveries of prior year unpaid obligations                                  (65,533.9)       (56,015.1)           0.0             0.0
 Obligated balances, end of year
   Unpaid Obligations, end of year (gross)                                    468,570.2        454,924.8          541.8          570.9
   Uncollected customer payments from                                         (77,953.4)       (75,184.3)         (83.5)         (99.9)
 Obligated balance, end of year (net)                                $        390,616.8 $      379,740.5 $        458.3 $        471.0




The accompanying notes are an integral part of these financial statements.


                                                                                                              Financial Information
                                                                         71
Department of Defense Agency Financial Report for FY 2012


 Department of Defense Combined                                                   Budgetary                    Non-Budgetary
 Statement of Budgetary Resources                                             Financing Accounts             Financing Accounts
 Agency Wide                                                               2012               2011            2012           2011
 Page 2 of 2                                                             Combined           Combined        Combined       Combined
 Dollars in Millions
 Budgetary Authority and Outlays, Net:
 Budget Authority, gross (discretionary and
                                                                     $        989,907.4 $ 1,026,648.8 $          235.2 $        318.1
 mandatory)
 Actual offsetting collections (discretionary and
                                                                             (190,586.0)     (190,906.0)         (92.6)        (102.6)
 mandatory)
 Change in uncollected customer payments from
                                                                               (2,769.1)       (5,417.5)          16.4            (2.6)
 Federal sources (discretionary and mandatory)
 Budget Authority, net (discretionary and
                                                                     $        796,552.3 $     830,325.3 $        159.0 $        212.9
 mandatory)
 Outlays, gross (discretionary and mandatory)                        $        979,889.9 $ 1,016,898.9 $          264.5 $        375.3
 Actual offsetting collections (discretionary and
                                                                             (190,586.0)     (190,906.0)         (92.6)        (102.6)
 mandatory)
 Outlays, net (discretionary and mandatory)                                   789,303.9       825,992.9          171.9          272.7
 Distributed offsetting receipts                                              (79,238.4)      (83,198.6)           0.0            0.0
 Agency Outlays, net (discretionary and
                                                                     $        710,065.5 $     742,794.3 $        171.9 $        272.7
 mandatory)




The accompanying notes are an integral part of these financial statements.


                                                                                                             Financial Information
                                                                         72
Department of Defense Agency Financial Report for FY 2012


NOTE 1. SIGNIFICANT ACCOUNTING POLICIES
1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of
operations of the Department of Defense (DoD), as required by the Chief Financial Officers
Act of 1990, expanded by the Government Management Reform Act of 1994, and other
appropriate legislation. The financial statements have been prepared from the books and
records of the Department in accordance with, to the extent possible, U.S. Generally
Accepted Accounting Principles (USGAAP) promulgated by the Federal Accounting Standards
Advisory Board; the Office of Management and Budget (OMB) Circular No. A-136, Financial
Reporting Requirements; and the DoD, Financial Management Regulation. The
accompanying financial statements account for all resources for which the Department is
responsible unless otherwise noted. Information relative to classified assets, programs, and
operations is excluded from the statements or otherwise aggregated and reported in such a
manner that it is not discernible.
The Department is unable to fully implement all elements of USGAAP and
OMB Circular No. A-136, due to limitations of financial and nonfinancial management
processes and systems that support the financial statements. The Department derives
reported values and information for major asset and liability categories largely from
nonfinancial systems, such as inventory and logistics systems. These systems were
designed to support reporting requirements for maintaining accountability over assets and
reporting the status of Federal appropriations rather than preparing financial statements in
accordance with USGAAP. The Department continues to implement process and system
improvements addressing these limitations.
The Department has 13 auditor-identified material weaknesses: (1) Financial Management
Systems; (2) Fund Balance with Treasury; (3) Accounts Receivable; (4) Inventory;
(5) Operating Materials and Supplies; (6) General Property, Plant, and Equipment;
(7) Government Property in Possession of Contractors; (8) Accounts Payable;
(9) Environmental Liabilities; (10) Statement of Net Cost; (11) Intragovernmental
Eliminations; (12) Accounting Entries; and (13) Reconciliation of Net Cost of Operations to
Budget.

1.B. Mission of the Reporting Entity
The Department was established by the National Security Act of 1947. The Department
provides the military forces needed to deter war and protect the security of our country.
Since the creation of America’s first army in 1775, the Department and predecessor
organizations have evolved into a global presence with a worldwide infrastructure dedicated
to defending the United States by deterring and defeating aggression and coercion in critical
regions.
The Department includes the Military Departments and the Defense Agencies. The Military
Departments consist of the Army, the Navy (of which the Marine Corps is a component),
and the Air Force. The Defense Agencies provide support services commonly used
throughout the Department.



                                                                       Financial Information
                                             73
Department of Defense Agency Financial Report for FY 2012


1.C. Appropriations and Funds
The Department receives appropriations and funds as general, working capital (revolving),
trust, special, and deposit funds. The Department uses these appropriations and funds to
execute its missions and subsequently report on resource usage.

General Funds are used for financial transactions funded by congressional appropriations,
including personnel, operation and maintenance, research and development, procurement,
and military construction. These general funds also include supplemental funds enacted by
the American Recovery and Reinvestment Act (Recovery Act) of 2009. Details relating to
Recovery Act appropriated funds are available on-line at http://www.defense.gov/recovery/.

Working capital funds (WCF) received funding to establish an initial corpus through an
appropriation or a transfer of resources from existing appropriations or funds. The corpus
finances operations and transactions that flow through the fund. The WCF resources the
goods and services sold to customers on a reimbursable basis and maintains the corpus.
Reimbursable receipts fund future operations and generally are available in their entirety for
use without further congressional action. At various times, Congress provides additional
appropriations to supplement the WCF as an infusion of cash when revenues are inadequate
to cover costs within the corpus.
Trust funds contain receipts and expenditures of funds held in trust by the government for
use in carrying out specific purposes or programs in accordance with the terms of the donor,
trust agreement, or statute. Special fund accounts are used to record government receipts
reserved for a specific purpose. Certain trust and special funds may be designated as
earmarked funds. Earmarked funds are financed by specifically identified revenues, required
by statute to be used for designated activities, benefits or purposes, and remain available
over time. The Department is required to separately account for and report on the receipt,
use and retention of revenues and other financing sources for earmarked funds.

Deposit funds are used to record amounts held temporarily until paid to the appropriate
government or public entity. They are not Department funds, and as such, are not available
for the Department’s operations. The Department is acting as an agent or custodian for
funds awaiting distribution.

The Department is a party to allocation transfers with other Federal agencies as a
transferring (parent) entity or receiving (child) entity. An allocation transfer is an entity’s
legal delegation of authority to obligate budget authority and outlay funds on its behalf.
Generally, all financial activity related to allocation transfers (e.g., budget authority,
obligations, outlays) is reported in the financial statements of the parent entity. Exceptions
to this general rule apply to specific funds for which OMB has directed that all activity be
reported in the financial statements of the child entity. These exceptions include
U.S. Treasury-Managed Trust Funds, Executive Office of the President (EOP), and all other
funds specifically designated by OMB.

The Department receives allocation transfers from the following agencies: Departments of
Agriculture, Interior, Energy, and Transportation; the Appalachian Regional Commission;
and the Federal Highway Administration.




                                                                         Financial Information
                                              74
Department of Defense Agency Financial Report for FY 2012


Additionally, the Department receives allocation transfers from certain funds meeting the
OMB exception and all related activity is included in the Department’s financial statements.
The exceptions reported by the Department include South Dakota Terrestrial Wildlife Habitat
Restoration, Inland Waterways and Harbor Maintenance. The Department receives allocation
transfers for the Security Assistance programs that meet the OMB exceptions for EOP funds.
These funds are reported separately from the DoD financial statements based on an
agreement with OMB.
As a parent, the Department allocates funds to the Departments of Transportation and
Agriculture, and reports all related activity in these financial statements.

1.D. Basis of Accounting
The Department’s financial management systems are unable to meet all full accrual
accounting requirements. Many of the Department’s financial and nonfinancial feeder
systems and processes were designed and implemented prior to the issuance of USGAAP.
These systems were not designed to collect and record financial information on the full
accrual accounting basis as required by USGAAP. Most of the Department’s financial and
nonfinancial legacy systems were designed to record information on a budgetary basis.

The Department’s financial statements and supporting trial balances are compiled from the
underlying financial data and trial balances of the Military Services and Defense Agencies
and their sub-entities. The underlying data is largely derived from budgetary transactions
(obligations, disbursements, and collections), from nonfinancial feeder systems, and
accruals made for major items such as payroll expenses, accounts payable, and
environmental liabilities. Some of the sub-entity level trial balances may reflect known
abnormal balances resulting largely from business and system processes. At the
consolidated level these abnormal balances may not be evident. Disclosures of abnormal
balances are made in the applicable footnotes, but only to the extent that the abnormal
balances are evident at the consolidated level.

The Department is determining the actions required to bring financial and nonfinancial
feeder systems and processes into compliance with USGAAP. One such action is the current
revision of accounting systems to record transactions based on the U.S. Standard General
Ledger (USSGL). Until all of the Department’s financial and nonfinancial feeder systems and
processes are able to collect and report financial information as required by USGAAP, the
Department’s financial data will be derived from budgetary transactions, data from
nonfinancial feeder systems, and accruals.

1.E. Revenues and Other Financing Sources
The Department receives congressional appropriations as financing sources for general
funds that expire annually, on a multi-year basis, or do not expire. When authorized by
legislation, these appropriations are supplemented by revenues generated by sales of goods
or services. The Department recognizes revenue as a result of costs incurred for goods and
services provided to other Federal agencies and the public. Full-cost pricing is the
Department’s standard policy for services provided as required by OMB Circular No. A-25,
User Charges. The Department recognizes revenue when earned within the constraints of its
current system capabilities. In some instances, revenue is recognized when bills are issued.


                                                                       Financial Information
                                            75
Department of Defense Agency Financial Report for FY 2012


Depot Maintenance and Ordnance WCF activities recognize revenue according to the
percentage of completion method. Supply Management WCF activities recognize revenue
from the sale of inventory items.

The Department does not include nonmonetary support provided by U.S. allies for common
defense and mutual security in amounts reported in the Statement of Net Cost and Note 21,
Reconciliation of Net Cost of Operations to Budget. The U.S. has cost sharing agreements
with countries having a mutual or reciprocal defense agreement, where U.S. troops are
stationed, or where the U.S. Fleet is in a port.

1.F. Recognition of Expenses
For financial reporting purposes, the Department’s policy requires the recognition of
operating expenses in the period incurred. Current financial and nonfinancial feeder systems
were not designed to collect and record financial information on the full accrual accounting
basis. Estimates are made for major items such as payroll expenses, accounts payable,
environmental liabilities, and unbilled revenue. In the case of Operating Materiel and
Supplies (OM&S), operating expenses are generally recognized when the items are
purchased. Efforts are underway to transition to the consumption method for recognizing
OM&S expenses. Under the consumption method, OM&S would be expensed when
consumed. Due to system limitations, in some instances expenditures for capital and other
long-term assets may be recognized as operating expenses. The Department continues to
implement process and system improvements to address these limitations.

1.G. Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminate intraentity activity and balances from
consolidated financial statements in order to prevent overstatement for business with itself.
However, the Department cannot accurately identify intragovernmental transactions by
customer because the Department’s systems do not track buyer and seller data at the
transaction level. Generally, seller entities within the Department provide summary
seller-side balances for revenue, accounts receivable, and unearned revenue to the
buyer-side internal accounting offices. In most cases, the buyer-side records are adjusted to
agree with the Department’s seller-side balances and are then eliminated. The Department
is implementing replacement systems and a standard financial information structure, which
will incorporate the necessary elements that will enable the Department to correctly report,
reconcile, and eliminate intragovernmental balances.

The Treasury Financial Manual Part 2 – Chapter 4700, “Agency Reporting Requirements for
the Financial Report of the United States Government”, provides guidance for reporting and
reconciling intragovernmental balances. While the Department is unable to fully reconcile
intragovernmental transactions with all Federal agencies, the Department is able to
reconcile balances pertaining to investments in Federal securities, borrowings from the
U.S. Treasury and the Federal Financing Bank, Federal Employees’ Compensation Act
transactions with the Department of Labor, and benefit program transactions with the Office
of Personnel Management.
The Department’s proportionate share of public debt and related expenses of the Federal
Government is not included. The Federal Government does not apportion debt and related


                                                                       Financial Information
                                             76
Department of Defense Agency Financial Report for FY 2012


costs to Federal agencies. The Department’s financial statements do not report any public
debt, interest, or source of public financing, whether from issuance of debt or tax revenues.
Generally, financing for the construction of the Department’s facilities is obtained through
appropriations. To the extent this financing ultimately may have been obtained through the
issuance of public debt, interest costs have not been capitalized since the U.S. Treasury
does not allocate such costs to the Department.

1.H. Transactions with Foreign Governments and International
Organizations
Each year, the Department sells defense articles and services to foreign governments and
international organizations under the provisions of the Arms Export Control Act of 1976.
Under the provisions of the Act, the Department has authority to sell defense articles and
services to foreign countries and international organizations generally at no profit or loss to
the Federal Government. Payment in U.S. dollars is required in advance.

1.I. Funds with the U.S. Treasury
The Department’s monetary resources are maintained in U.S. Treasury accounts. The
disbursing offices of Defense Finance and Accounting Service (DFAS), the Military
Departments, the U.S. Army Corps of Engineers (USACE), and the Department of State’s
financial service centers process the majority of the Department’s cash collections,
disbursements, and adjustments worldwide. Each disbursing station prepares monthly
reports to the U.S. Treasury on checks issued, electronic fund transfers, interagency
transfers, and deposits.

In addition, DFAS sites and the USACE Finance Center submit reports to the U.S. Treasury
by appropriation on interagency transfers, collections received, and disbursements issued.
The U.S. Treasury records these transactions to the applicable Fund Balance with Treasury
(FBWT) account. On a monthly basis, the Department's FBWT is adjusted to agree with the
U.S. Treasury accounts.

1.J. Cash and Other Monetary Assets
Cash is the total of cash resources under the control of the Department which includes coin,
paper currency, negotiable instruments, and amounts held for deposit in banks and other
financial institutions. Foreign currency consists of the total U.S. dollar equivalent of both
purchased and nonpurchased foreign currencies held in foreign currency fund accounts.
Foreign currency is valued using the U.S. Treasury prevailing rate of exchange.
The majority of cash and all foreign currency is classified as “nonentity” and is restricted.
Amounts reported consist primarily of cash and foreign currency held by disbursing officers
to carry out their paying, collecting, and foreign currency accommodation exchange
missions.
The Department conducts a significant portion of operations overseas. Congress established
a special account to handle the gains and losses from foreign currency transactions for five
general fund appropriations: (1) operations and maintenance; (2) military personnel;
(3) military construction; (4) family housing operation and maintenance; and (5) family
housing construction. The gains and losses are calculated as the variance between the

                                                                         Financial Information
                                              77
Department of Defense Agency Financial Report for FY 2012


exchange rate current at the date of payment and a budget rate established at the
beginning of each fiscal year. Foreign currency fluctuations related to other appropriations
require adjustments to the original obligation amount at the time of payment. The
Department does not separately identify foreign currency fluctuation transactions.

1.K. Accounts Receivable
Accounts receivable from other Federal entities or the public include: accounts receivable,
claims receivable, and refunds receivable. Allowances for uncollectible accounts due from
the public are based upon an analysis of collection experience. The Department does not
recognize an allowance for estimated uncollectible amounts from other Federal agencies.
Claims against other Federal agencies are to be resolved between the agencies in
accordance with dispute resolution procedures defined in the Intragovernmental Business
Rules published in the Treasury Financial Manual.

1.L. Direct Loans and Loan Guarantees
The Department operates a direct loan and loan guarantee program authorized by the
National Defense Authorization Act for FY 1996 (Public Law (PL) 104-106, Section 2801).
The Act includes a series of authorities that allow the Department to work with the private
sector to renovate military housing. The Department’s goals are to obtain private capital to
leverage government dollars, make efficient use of limited resources, and use a variety of
private sector approaches to build and renovate military housing faster and at a lower cost
to the American taxpayers.
The Act also provides the Department with a variety of authorities to obtain private sector
financing and expertise to improve military housing. The Department uses these authorities
individually or in combination. They include guarantees (both loan and rental),
conveyance/leasing of existing property and facilities, differential lease payments,
investments (both limited partnerships and stock/bond ownership), and direct loans.

National Defense Authorization Act for FY 2005 (PL 108-375, Section 2805) provided
permanent authorities to the Military Housing Privatization Initiative (MHPI).
The Department operates the Armament Retooling and Manufacturing Support Initiative
under Title 10 United States Code 4551-4555. This loan guarantee program is designed to
encourage commercial use of inactive government facilities. The revenue generated from
property rental offsets the cost of maintaining these facilities.
The Department administers the Foreign Military Financing program on behalf of the EOP.
This program is authorized by sections 23 and 24 of the Arms Export Control Act of 1976, as
amended, PL 90-629, as amended, and section 503(a). This program provides loans to help
countries purchase U.S. produced weapons, defense equipment, services, or military
training. The direct loans and loan guarantees related to Foreign Military Sales are not
included in these financial statements, per the Department’s agreement with OMB; this
information is provided separately as other accompanying information.
The Federal Credit Reform Act of 1990 governs all amended direct loan obligations and loan
guarantee commitments made after FY 1991.



                                                                       Financial Information
                                            78
Department of Defense Agency Financial Report for FY 2012


1.M. Inventories and Related Property
The Department values approximately 84 percent of resale inventory using the moving
average cost method. An additional 12 percent (fuel inventory) is reported using the
first-in-first-out method. The Department reports the remaining 4 percent of resale
inventories at an approximation of historical cost using latest acquisition cost adjusted for
holding gains and losses. The latest acquisition cost method is used because legacy
inventory systems were designed for materiel management rather than accounting.
Although these systems provide visibility and accountability over inventory items, they do
not maintain historical cost data necessary to comply with Statement of Federal Financial
Accounting Standards (SFFAS) No. 3, Accounting for Inventory and Related Property.
Additionally, these systems cannot produce financial transactions using the USSGL, as
required by the Federal Financial Management Improvement Act of 1996 (PL 104-208). The
Department is continuing to transition the balance of the inventories to the moving average
cost method through the use of new inventory systems. Most transitioned balances,
however, were not baselined to auditable historical cost and remain noncompliant with
SFFAS No. 3.

The Department manages only military or government-specific materiel under normal
conditions. Materiel is a unique term that relates to military force management, and
includes items such as ships, tanks, self-propelled weapons, aircraft, etc., and related
spares, repair parts, and support equipment. Items commonly used in and available from
the commercial sector are not managed in the Department’s materiel management
activities. Operational cycles are irregular, and the military risks associated with stock-out
positions have no commercial parallel. The Department holds materiel based on military
need and support for contingencies. The Department is currently developing a methodology
to be used to account for “inventory held for sale” and “inventory held in reserve for future
sale.”

Related property includes OM&S and stockpile materiel. The OM&S, including munitions not
held for sale, are valued at standard purchase price. The Department uses both the
consumption method and the purchase method of accounting for OM&S. Items that are
centrally managed and stored, such as ammunition and engines, are generally recorded
using the consumption method and are reported on the Balance Sheet as OM&S. When
current systems cannot fully support the consumption method, the Department uses the
purchase method. Under this method, materiel and supplies are expensed when purchased.
During FY 2012 and FY 2011, the Department expensed significant amounts using the
purchase method because the systems could not support the consumption method or
management deemed that the item was in the hands of the end user. This is a material
weakness for the Department and long-term system corrections are in process. Once the
proper systems are in place, these items will be accounted for under the consumption
method of accounting.

The Department determined that the recurring high dollar-value of OM&S in need of repair
is material to the financial statements and requires a separate reporting category. Many
high-dollar items, such as aircraft engines, are categorized as OM&S rather than military
equipment.



                                                                        Financial Information
                                             79
Department of Defense Agency Financial Report for FY 2012


The Department recognizes excess, obsolete, and unserviceable inventory and OM&S at a
net realizable value of $0 pending development of an effective means of valuing such
materiel.

Inventory available and purchased for resale includes consumable spare and repair parts,
and repairable items owned and managed by the Department. This inventory is retained to
support military or national contingencies. Inventory held for repair is damaged inventory
that requires repair to make it suitable for sale. Often, it is more economical to repair these
items rather than to procure them. The Department often relies on weapon systems and
machinery no longer in production. As a result, the Department supports a process that
encourages the repair and rebuilding of certain items. This repair cycle is essential to
maintaining a ready, mobile, and armed military force. Work in process balances include:
(1) costs related to the production or servicing of items, including direct material, labor, and
applied overhead; (2) the value of finished products or completed services that are yet to
be placed in service; and (3) munitions in production and depot maintenance work with
associated costs incurred in the delivery of maintenance services.

1.N. Investments in U.S. Treasury Securities
The Department reports investments in U.S. Treasury securities at cost, net of amortized
premiums or discounts. Premiums or discounts are amortized over the term of the
investments using the effective interest rate method or another method that yields similar
results. The Department’s intent is to hold investments to maturity unless they are needed
to finance claims or otherwise sustain operations. Consequently, a provision is not made for
unrealized gains or losses on these securities.

The Department invests in nonmarketable market-based U.S. Treasury securities, which are
issued to Federal agencies by the U.S. Treasury’s Bureau of the Public Debt. They are not
traded on any securities exchange but mirror the prices of particular U.S. Treasury
securities traded in the government securities market.
The Department’s net investments are held by various trust and special funds. These funds
include the Military Retirement Fund; Medicare-Eligible Retiree Health Care Fund; Other
Defense Organizations General Fund trust and special funds; donations (gift funds); and the
U.S. Treasury managed trust funds reported by USACE including the South Dakota
Terrestrial Habitat Restoration, Inland Waterways, and Harbor Maintenance Trust Funds.

Other investments represent joint ventures with private developers constructing or
improving military housing on behalf of the Department under the authority of MHPI,
authorized by PL 104-106, Section 2801. These investments do not require market value
disclosure. The Department’s potential losses on these ventures are limited to the amounts
invested.

1.O. General Property, Plant and Equipment
The Department uses the estimated historical cost for valuing military equipment. The
Department identified the universe of military equipment by accumulating information
relating to program funding and associated military equipment, equipment useful life,
program acquisitions, and disposals to establish a baseline. The military equipment baseline
is updated using expenditure, acquisition, and disposal information.

                                                                          Financial Information
                                              80
Department of Defense Agency Financial Report for FY 2012


The Department’s General Property, Plant, and Equipment (PP&E) capitalization threshold is
$100 thousand except for real property, which is $20 thousand. The Department has not
fully implemented the threshold for real property; therefore, the Department is primarily
using the capitalization threshold of $100 thousand for General PP&E, and most real
property.
With the exception of USACE Civil Works and WCF, General PP&E assets are capitalized at
historical acquisition cost when an asset has a useful life of two or more years and when the
acquisition cost equals or exceeds the Department’s capitalization threshold. The
Department also requires the capitalization of improvements to existing General PP&E
assets if the improvements equal or exceed the capitalization threshold and extend the
useful life or increase the size, efficiency, or capacity of the asset. The Department
depreciates all General PP&E, other than land, on a straight-line basis.

The WCF capitalize all PP&E used in the performance of their mission. These assets are
capitalized as General PP&E, whether or not they meet the definition of any other PP&E
category.

The USACE Civil Works General PP&E is capitalized at acquisition cost plus capitalized
improvements when an asset has a useful life of two or more years and the acquisition cost
exceeds $25 thousand. The exception is buildings and structures related to hydropower
projects, which are capitalized regardless of cost.

When it is in the best interest of the government, the Department provides government
property to contractors to complete contract work. The Department either owns or leases
such property, or it is purchased directly by the contractor for the government based on
contract terms. When the value of contractor-procured General PP&E meets or exceeds the
Department’s capitalization threshold, Federal accounting standards require that it be
reported on the Department’s Balance Sheet.

The Department developed policy and a reporting process for contractors with government
furnished equipment that provides appropriate General PP&E information for financial
statement reporting. The Department requires that entities maintain, in their property
systems, information on all property furnished to contractors. These actions are structured
to capture and report the information necessary for compliance with Federal accounting
standards. The Department has not fully implemented this policy primarily due to system
limitations.

1.P. Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, the
Department’s policy is to record advances or prepayments in accordance with USGAAP. As
such, payments made in advance of the receipt of goods and services should be reported as
an asset on the Balance Sheet. The Department’s policy is to expense and/or properly
classify assets when the related goods and services are received. The Department has not
fully implemented this policy primarily due to system limitations.




                                                                       Financial Information
                                             81
Department of Defense Agency Financial Report for FY 2012


1.Q. Leases
Lease payments for the rental of equipment and operating facilities are classified as either
capital or operating leases. When a lease is essentially equivalent to an installment
purchase of property (a capital lease), and the value equals or exceeds the current
capitalization threshold, the Department records the applicable asset as though purchased,
with an offsetting liability, and depreciates it. The Department records the asset and liability
at the lesser of the present value of the rental and other lease payments during the lease
term (excluding portions representing executory costs paid to the lessor) or the asset’s fair
market value. The discount rate for the present value calculation is either the lessor’s
implicit interest rate or the government’s incremental borrowing rate at the inception of the
lease. The Department, as the lessee, receives the use and possession of leased property,
for example real estate or equipment, from a lessor in exchange for a payment of funds. An
operating lease does not substantially transfer all the benefits and risks of ownership.
Payments for operating leases are expensed over the lease term as they become payable.

Office space and leases entered into by the Department are the largest component of
operating leases and are based on costs gathered from existing leases, General Services
Administration bills, and interservice support agreements. Future year projections use the
Consumer Price Index.

1.R. Other Assets
Other assets include those assets, such as military and civil service employee pay advances,
travel advances, and certain contract financing payments that are not reported elsewhere
on the Department’s Balance Sheet.

The Department conducts business with commercial contractors under two primary types of
contracts: fixed price and cost reimbursable. To alleviate the potential financial burden on
the contractor that long-term contracts can cause, the Department may provide financing
payments. Contract financing payments are defined in the Federal Acquisition Regulation,
Part 32, as authorized disbursements to a contractor prior to acceptance of supplies or
services by the Government. Contract financing payment clauses are incorporated in the
contract terms and conditions and may include advance payments, performance-based
payments, commercial advances and interim payments, progress payments based on cost,
and interim payments under certain cost reimbursement contracts. It is the Department’s
policy to record certain contract financing payments as other assets. The Department has
not fully implemented this policy primarily due to system limitations.
Contract financing payments do not include invoice payments, payments for partial
deliveries, lease and rental payments, or progress payments based on a percentage or
stage of completion. The Defense Federal Acquisition Regulation Supplement authorizes
progress payments based on a percentage or stage of completion only for construction of
real property, shipbuilding and ship conversion, alteration, or repair. Progress payments
based on percentage or stage of completion are reported as Construction in Progress.




                                                                          Financial Information
                                              82
Department of Defense Agency Financial Report for FY 2012


1.S. Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government”, as amended by
SFFAS No. 12, “Recognition of Contingent Liabilities Arising from Litigation”, defines a
contingency as an existing condition, situation, or set of circumstances that involves an
uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more
future events occur or fail to occur. The Department recognizes contingent liabilities when
past events or exchange transactions occur, a future loss is probable, and the loss amount
can be reasonably estimated.
Financial statement reporting is limited to disclosure when conditions for liability recognition
do not exist, but there is at least a reasonable possibility of incurring a loss or additional
losses. The Department’s risk of loss and resultant contingent liabilities arise from pending
or threatened litigation or claims and assessments due to events such as aircraft, ship and
vehicle accidents; medical malpractice; property or environmental damages; and contract
disputes.

Other liabilities also arise as a result of anticipated disposal costs for the Department’s
assets. Consistent with SFFAS No. 6, “Accounting for Property, Plant, and Equipment”,
recognition of an anticipated environmental disposal liability begins when the asset is placed
into service. Based on the Department’s policy, which is consistent with SFFAS No. 5,
“Accounting for Liabilities of the Federal Government”, nonenvironmental disposal liabilities
are recognized when management decides to dispose of an asset. The Department
recognizes nonenvironmental disposal liabilities for military equipment nuclear-powered
assets when placed into service. These amounts are not easily distinguishable and are
developed in conjunction with environmental disposal costs.

1.T. Accrued Leave
The Department reports liabilities for military leave and accrued compensatory and annual
leave for civilians. Sick leave for civilians is expensed when taken. The liabilities are based
on current pay rates.

1.U. Net Position
Net position consists of unexpended appropriations and cumulative results of operations.

Unexpended appropriations represent the amounts of budget authority that are unobligated
and have not been rescinded or withdrawn. Unexpended appropriations also represent
amounts obligated for which legal liabilities for payments have not been incurred.

Cumulative results of operations represent the net difference between expenses and losses,
and financing sources (including appropriations, revenue, and gains), since inception. The
cumulative results of operations also include donations and transfers in and out of assets
that were not reimbursed.

1.V. Treaties for Use of Foreign Bases
The Department has the use of land, buildings, and other overseas facilities that are
obtained through various international treaties and agreements negotiated by the
Department of State. The Department purchases capital assets overseas with appropriated

                                                                          Financial Information
                                              83
Department of Defense Agency Financial Report for FY 2012


funds; however, the host country retains title to the land and capital improvements. Treaty
terms generally allow the Department continued use of these properties until the treaties
expire. In the event treaties or other agreements are terminated, use of the foreign bases is
prohibited and losses are recorded for the value of any nonretrievable capital assets. The
settlement due to the U.S. or host nation is negotiated and takes into account the value of
capital investments and may be offset by the cost of environmental cleanup.

1.W. Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between
disbursements and collections matched at the transaction level to specific obligations,
payables, or receivables in the source systems and those reported by the U.S. Treasury.

Supported disbursements and collections may be evidenced by corroborating documentation
that would generally support the summary level adjustments made to accounts payable and
receivable. Unsupported disbursements and collections do not have supporting
documentation for the transaction and most likely would not meet audit scrutiny. However,
both supported and unsupported adjustments may have been made to the Department’s
Accounts Payable and Receivable trial balances prior to validating underlying transactions
required to establish the Accounts Payable/Receivable were previously made. As a result,
misstatements of reported Accounts Payable and Receivable are likely present in the
Department’s financial statements.

Due to noted material weaknesses in current accounting and financial feeder systems, the
Department is generally unable to determine whether undistributed disbursements and
collections should be applied to Federal or non-Federal accounts payable/receivable at the
time accounting reports are prepared. Accordingly, the Department’s policy is to allocate
supported undistributed disbursements and collections between Federal and non-Federal
categories based on the percentage of distributed Federal and non-Federal accounts payable
and accounts receivable. Both supported and unsupported undistributed disbursements and
collections are then applied to reduce accounts payable and receivable accordingly.

1.X. Fiduciary Activities
Fiduciary cash and other assets are not assets of the Department and are not recognized on
the Balance Sheet. Fiduciary activities are reported on the financial statement note
schedules.

1.Y. Military Retirement and Other Federal Employment Benefits
The Department applies SFFAS No. 33, “Pensions, Other Retirement Benefits, and Other
Postemployment Benefits: Reporting the Gains and Losses from Changes in Assumptions
and Selecting Discount Rates and Valuation Dates”, in selecting the discount rate and
valuation date used in estimating actuarial liabilities. In addition, gains and losses from
changes in long-term assumptions used to estimate the actuarial liability are presented
separately on the Statement of Net Cost. Refer to Note 17, Military Retirement and Other
Federal Employment Benefits and Note 18, General Disclosures Related to the Statement of
Net Cost, for additional information.



                                                                       Financial Information
                                             84
Department of Defense Agency Financial Report for FY 2012


1.Z. Significant Events
None.

NOTE 2. NONENTITY ASSETS
 Nonentity Assets                                                                Dollars in Millions
                                                                                     Restated
                                                                  2012
 As of September 30                                                                    2011
 Intragovernmental Assets
   Fund Balance with Treasury                                 $          788.8   $            988.6
   Total Intragovernmental Assets                             $          788.8   $            988.6
 Non-Federal Assets
   Cash and Other Monetary Assets                             $       1,709.1    $        1,643.2
   Accounts Receivable                                                7,172.8             6,490.7
   Other Assets                                                         179.1               184.8
   Total Non-Federal Assets                                   $       9,061.0    $        8,318.7
 Total Nonentity Assets                                       $       8,849.8    $        9,307.3
 Total Entity Assets                                          $   2,075,876.9    $    2,022,239.7
 Total Assets                                                 $   2,085,726.7    $    2,031,547.0


Nonentity assets are assets for which the Department maintains stewardship accountability
and reporting responsibility but are not available for the Department’s normal operations.

Restatements
The Department corrected a $1.0 billion understatement of General Property, Plant and
Equipment, and a $0.9 billion overstatement of Other Assets to align the accounting records
to the property accountability system. These corrections result in a $0.1 billion increase in
Total Entity Assets. Refer to Note 26, Restatements, for further information.

Other Disclosures
Intra-governmental Fund Balance with Treasury (FBWT) primarily consists of deposit funds
and receipt accounts. Deposit funds are used to record amounts held temporarily until paid
to the appropriate party. Receipt accounts are used for amounts collected on behalf of the
U.S. Treasury General Fund.

Intra-governmental Accounts Receivable consist of amounts associated with canceled year
appropriations. Generally, the Department cannot use the collections related to cancelled
appropriation and must return them to the U.S. Treasury.

Non-Federal Cash and Other Monetary Assets primarily consist of cash held by Disbursing
Officers to carry out payment, collection, and foreign currency accommodation exchange
missions.
Non-Federal Accounts Receivable consist of amounts associated with canceled year
appropriations, and interest, fines and penalties due on debt. Generally, the Department
cannot use collections and must distribute them to the U.S. Treasury.




                                                                         Financial Information
                                             85
Department of Defense Agency Financial Report for FY 2012


Non-Federal Other Assets consist of Advance Payment Pool Agreements (APPAs) for
research and development projects. AAPAs are utilized when multiple contracts with a
nonprofit educational institution require advance payments.

NOTE 3. FUND BALANCE WITH TREASURY
 Fund Balance with Treasury                                                     Dollars in Millions
 As of September 30                                               2012                2011
 Fund Balance
  Appropriated Funds                                          $    500,572.1    $      509,337.0
  Revolving Funds                                                    8,037.2             9,887.2
  Trust Funds                                                        2,132.9             2,494.4
  Special Funds                                                        548.2               697.7
  Other Fund Types                                                     831.2             1,025.3
  Total Fund Balance                                          $    512,121.6    $      523,441.6
 Fund Balance Per Treasury Versus Agency
  Fund Balance per Treasury                                   $    521,342.1    $      530,849.7
  Fund Balance per Agency                                          512,121.6           523,441.6
 Reconciling Amount                                           $      9,220.5    $        7,408.1


Other Fund Types primarily consists of deposit funds and receipt accounts.

The Department shows a reconciling net difference of $9.2 billion with U.S. Treasury. This
includes canceling year authority of $8.5 billion, unavailable receipts of $586.6 million,
allocation transfers of $103.3 million, and fiduciary activities of $36.9 million.

 Status of Fund Balance with Treasury                                           Dollars in Millions
 As of September 30                                               2012                2011
 Unobligated Balances
  Available                                                   $     119,674.0   $       141,171.4
  Unavailable                                                       582,311.3           583,913.4
 Obligated Balance not yet Disbursed                                469,112.0           455,495.4
 Non-Budgetary FBWT                                                     723.3             1,966.0
 Non-FBWT Budgetary Accounts                                      (659,699.0)         (659,104.6)
 Total Fund Balance                                           $     512,121.6   $       523,441.6


The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to
support FBWT and is a reconciliation between budgetary and proprietary accounts. It
primarily consists of unobligated and obligated balances. The balances reflect the budgetary
authority remaining for disbursements against current or future obligations.
Unobligated Balance is classified as available or unavailable and represents the cumulative
amount of budgetary authority that has not been set aside to cover outstanding obligations.
The unavailable balance consists primarily of funds invested in U.S. Treasury securities that
are temporarily precluded from obligation by law. Certain unobligated balances are
restricted for future use and are not apportioned for current use. Unobligated balances for
trust fund accounts are restricted for use by the public laws that established the funds.



                                                                         Financial Information
                                             86
Department of Defense Agency Financial Report for FY 2012


Obligated Balance not yet Disbursed represents funds that have been obligated for goods
and services not received, and those received but not paid.

Non-Budgetary FBWT includes accounts that do not have budgetary authority, such as
deposit funds, unavailable receipt accounts, clearing accounts, and nonentity FBWT.

Non-FBWT Budgetary Accounts reduce the Status of FBWT and consist of investments in
U.S. Treasury securities, unfilled customer orders without advance, contract and borrowing
authority accounts, and receivables.

NOTE 4. INVESTMENTS AND RELATED INTEREST
 Investments and Related Interest                                                                        Dollars in Millions
                                                                                2012
                                                                              Amortized                        Market
                                                              Amortization                    Investments,
                                                    Cost                     (Premium)/                        Value
                                                                Method                            Net
 As of September 30                                                           Discount                       Disclosure
 Intragovernmental Securities
 Nonmarketable, Market-Based
   Military Retirement Fund                     $ 435,206.4   See Below      $ (11,012.4)     $ 424,194.0    $ 536,544.6
   Medicare-Eligible Retiree Health               207,793.6   See Below         (6,433.4)       201,360.2      262,831.3
   Care Fund
   US Army Corps of Engineers                       7,264.6   See Below              (57.7)       7,206.9        7,416.2
   Other Funds                                      3,278.3   See Below              (79.8)       3,198.5        3,461.3
 Total Nonmarketable, Market-Based                653,542.9                      (17,583.3)     635,959.6      810,253.4
 Accrued Interest                                   5,706.9                                       5,706.9        5,706.9
 Total Intragovernmental Securities             $ 659,249.8                  $ (17,583.3)     $ 641,666.5    $ 815,960.3
 Other Investments
 Total Other Investments                        $   3,255.0   See Below      $         0.0    $    3,255.0            N/A
 Amortization Method Used: Effective Interest


 Investments and Related Interest                                                                        Dollars in Millions
                                                                                2011
                                                                              Amortized                        Market
                                                              Amortization                    Investments,
                                                    Cost                     (Premium)/                        Value
                                                                Method                            Net
 As of September 30                                                           Discount                       Disclosure
 Intragovernmental Securities
 Nonmarketable, Market-Based
   Military Retirement Fund                     $ 376,420.2   See Below      $ (8,209.2)      $ 368,211.0      432,741.4
   Medicare-Eligible Retiree Health               191,058.7   See Below        (5,136.4)        185,922.3      221,620.5
   Care Fund
   US Army Corps of Engineers                       6,495.4   See Below              (37.3)       6,457.8        6,171.8
   Other Funds                                      3,448.3   See Below              (57.9)       3,390.4        3,611.4
 Total Nonmarketable, Market-Based                577,422.3                      (13,440.8)     563,981.5      664,145.1
 Accrued Interest                                   5,360.7                                       5,360.7        5,360.7
 Total Intragovernmental Securities             $ 582,783.0                  $ (13,440.8)     $ 569,342.2    $ 669,505.8
 Other Investments
 Total Other Investments                        $   3,185.0   See Below      $         0.0    $    3,185.0            N/A
 Amortization Method Used: Effective Interest




                                                                                                  Financial Information
                                                              87
Department of Defense Agency Financial Report for FY 2012


The Department invests primarily in non-marketable, market-based securities. The value of
these securities fluctuates in tandem with the selling price of the equivalent marketable
security. The securities are purchased with the intent to hold until maturity, thus balances
are not adjusted to market value.

The U.S. Treasury securities are issued to the earmarked funds as evidence of its receipts
and are an asset to the Department and a liability to the U.S. Treasury. The Federal
Government does not set aside assets to pay future benefits or other expenditures
associated with earmarked funds. The cash generated from earmarked funds is deposited in
the U.S. Treasury and used for general government purposes. Since the Department and
the U.S. Treasury are both part of the Federal Government, these assets and liabilities
offset each other from the standpoint of the Federal Government as a whole. For this
reason, they do not represent an asset or a liability in the U.S. Government wide financial
statements.
The U.S. Treasury securities provide the Department with authority to draw upon the
U.S. Treasury to make future benefit payments or other expenditures. When the
Department requires redemption of these securities to make expenditures, the Government
will finance them from accumulated cash balances, by raising taxes or other receipts,
borrowing from the public or repaying less debt, or curtailing other expenditures. The
Federal Government uses the same method to finance all other expenditures.

Other Funds primarily consists of $2.0 billion in investments of the DoD Education Benefits
Trust Fund, $817.9 million in investments of the Host Nation Support for U.S. Relocation
Activities Trust Fund, and $316.7 million in investments of the Voluntary Separation
Incentive Trust Fund.

Other Investments consist of Military Housing Privatization Initiative limited partnerships.
The limited partnerships support military housing at Army, Air Force, Navy and Marine
Corps installations. This investment relates to limited partnerships that do not require
Market Value Disclosure.

NOTE 5. ACCOUNTS RECEIVABLE
 Accounts Receivable                                                                    Dollars in Millions
                                                               2012
                                                           Allowance for
                                                                                      Accounts
                                  Gross Amount Due           Estimated
                                                                                    Receivable, Net
 As of September 30                                        Uncollectibles
  Intragovernmental Receivables   $          1,439.6                    N/A     $                1,439.6
  Non-Federal Receivables
                                            12,420.5                 (898.1)                    11,522.4
  (From the Public)
 Total Accounts Receivable        $         13,860.1   $             (898.1)    $               12,962.0




                                                                               Financial Information
                                              88
Department of Defense Agency Financial Report for FY 2012


 Accounts Receivable                                                                         Dollars in Millions
                                                                 2011
                                                             Allowance for
                                                                                         Accounts
                                    Gross Amount Due           Estimated
                                                                                       Receivable, Net
 As of September 30                                          Uncollectibles
  Intragovernmental Receivables     $          1,726.9                     N/A     $                  1,726.9
  Non-Federal Receivables
                                              10,644.6                  (683.2)                       9,961.4
  (From the Public)
 Total Accounts Receivable          $         12,371.5   $              (683.2)    $                 11,688.3

Accounts receivable represent the Department's claim for payment from other entities. The
Department only recognizes an allowance for uncollectible amounts from the public. Claims
with other Federal agencies are resolved in accordance with the Intragovernmental Business
Rules.

NOTE 6. OTHER ASSETS
 Other Assets                                                                             Dollars in Millions
                                                                                              Restated
                                                                         2012
 As of September 30                                                                             2011
 Intragovernmental Other Assets
 Advances and Prepayments                                           $          1,447.3   $            1,634.2
 Other Assets                                                                    135.9                  126.1
 Total Intragovernmental Other Assets                               $          1,583.2   $            1,760.3
 Non-Federal Other Assets
 Outstanding Contract Financing Payments                            $         65,342.9   $           66,713.5
 Advances and Prepayments                                                      1,063.6                  801.3
 Other Assets (With the Public)                                                  194.7                  199.6
 Total Non-Federal Other Assets                                     $         66,601.2   $           67,714.4
 Total Other Assets                                                 $         68,184.4   $           69,474.7



Restatements
The Department corrected a $955.1 million prior-year overstatement of Other Assets (With
the Public). Refer to Note 26, Restatements, for further information.

Other Disclosures
Intragovernmental Other Assets represents the Department’s right to approximately
6.4 million barrels of crude oil held by the Department of Energy.

Other Assets (With the Public) consist of Advance Payment Pool Agreements (APPAs) for
research and development projects. AAPAs are utilized when multiple contracts with a
nonprofit educational institution require advance payments.

Contract terms and conditions for certain types of contract financing payments convey
rights to the Government that protect the contract work from state or local taxation, liens or
attachment by contractor’s creditors, transfer of property, or disposition in bankruptcy.
However, these rights should not be misconstrued to mean that ownership of contractor’s
work has transferred to the Federal Government. The Federal Government does not have

                                                                                  Financial Information
                                                89
Department of Defense Agency Financial Report for FY 2012


the right to take the work, except as provided for in contract clauses related to termination
or acceptance. The Department is not obligated to make payment to contractors until
delivery and acceptance.

Outstanding Contract Financing Payments includes $61.9 billion in contract financing
payments and an additional $3.4 billion in estimated future payments to contractors upon
delivery and government acceptance of satisfactory product. Refer to Note 15, Other
Liabilities, for further information.

NOTE 7. CASH AND OTHER MONETARY ASSETS
    Cash and Other Monetary Assets                                                Dollars in Millions
    As of September 30                                             2012                 2011
    Cash                                                       $          443.9   $           472.9
    Foreign Currency                                                    1,378.1             1,247.4
    Total Cash, Foreign Currency, and Other Monetary Assets    $        1,822.0   $         1,720.3

Cash (except for $112.9 million in undeposited collections and imprest funds) and Foreign
Currency represent nonentity assets and are restricted and unavailable to fund the
Department’s mission.

NOTE 8. DIRECT LOAN AND LOAN GUARANTEES
Direct Loan and Loan Guarantee Programs
The Department operates the following direct loan and/or loan guarantee programs:

•      Military Housing Privatization Initiative (MHPI)

•      Armament Retooling and Manufacturing Support Initiative (ARMS)

The Federal Credit Reform Act of 1990 governs all new and amended direct loan obligations
and loan guarantee commitments made after FY 1991.

Direct loans are reported at the net present value of the following projected cash flows:

•      Loan disbursements

•      Repayments of principal
•      Payments of interest and other payments over the life of the loan after adjusting for
       estimated defaults, prepayments, fees, penalties, and recoveries
Loan guarantee liabilities are reported at the net present value. The cost of the loan
guarantee is the net present value of the following estimated projected cash flows:
•      Payments by the Department to cover defaults and delinquencies, interest subsidies, or
       other payments; offset by payments to the Department including origination and other
       fees, penalties, and recoveries.

Military Housing Privatization Initiative
The MHPI includes both direct loan and loan guarantee programs. The programs are
authorized by the National Defense Authorization Act for FY 1996 (PL 104-106,


                                                                          Financial Information
                                                     90
Department of Defense Agency Financial Report for FY 2012


Section 2801) and includes a series of authorities that allow the Department to work with
the private sector to renovate and build military family housing. The MHPI accelerates the
construction of new housing built to market standards, and leverages private sector capital.
One of the goals of the Department is to obtain private sector capital to leverage
government dollars. The Department provides protection to the private sector partner
against specific risks, such as base closure or member deployment.

Armament Retooling and Manufacturing Support Initiative
The ARMS Initiative, Title 10 United States Code 4551-4555, is a loan guarantee program
designed to encourage commercial use of the Army’s inactive ammunition plants through
incentives for businesses willing to locate to a government ammunition production facility.
The production capacity of these facilities is greater than current military requirements;
however, this capacity may be needed by the military in the future. Revenues from property
rentals are used to help offset the overhead costs for the operation, maintenance and
environmental cleanup at the facilities.

In an effort to preclude any additional loan liability, the Army instituted an ARMS loan
guarantee moratorium in FY 2004. The Army continues to operate under the moratorium
and does not anticipate new loans.

 Summary of Direct Loans and Loan Guarantees                                     Dollars in Millions
                                                                  2012                 2011
 Loans Receivable
 Direct Loans:
 Military Housing Privatization Initiative                               957.5                814.4
   Total Direct Loans                                         $          957.5   $            814.4
 Defaulted Loan Guarantees:
 Military Housing Privatization Initiative                                 0.0                   0.0
 Armament Retooling & Manufacturing Support Initiative                     0.0                   0.0
   Total Default Loan Guarantees
 Total Loans Receivable                                       $          957.5   $            814.4
 Loan Guarantee Liability
 Military Housing Privatization Initiative                                11.7                 13.7
 Armament Retooling & Manufacturing Support Initiative                     1.0                  0.2
 Total Loan Guarantee Liability                               $           12.7   $             13.9


 Direct Loans Obligated                                                          Dollars in Millions
                                                                  2012                 2011
 Direct Loans Obligated After FY 1991
 (Present Value Method):
 Military Housing Privatization Initiative
 Loans Receivable Gross                                       $      1,119.6     $            953.8
 Interest Receivable                                                     0.0                    0.0
 Foreclosed Property                                                     0.0                    0.0
 Allowance for Subsidy Cost (Present Value)                          (162.1)                (139.4)
   Value of Assets Related to Direct Loans                             957.5                  814.4
 Total Direct Loans Receivable                                $        957.5     $            814.4



                                                                         Financial Information
                                                         91
Department of Defense Agency Financial Report for FY 2012


Loans receivable, net, or value of assets related to loans, is not the same as the proceeds the
Department would expect to receive from selling the loans.

Interest receivable is calculated using the interest earned method.

 Total Amount of Direct Loans Disbursed                                                                          Dollars in Millions
                                                                                              2012                      2011
 Direct Loan Programs
   Military Housing Privatization Initiative                                           $               261.1    $               304.8
   Total                                                                               $               261.1    $               304.8


 Subsidy Expense for Direct Loan by Program                                                                         Dollars in Millions
                                   Interest
             2012                                                    Defaults         Fees              Other               Total
                                  Differential
 New Direct Loans Disbursed
 Military Housing Privatization Initiative     $         21.3    $        22.2    $          0.0   $            0.0    $         43.5
  Total                                        $         21.3    $        22.2    $          0.0   $            0.0    $         43.5
                                                Interest
                  2011                                               Defaults         Fees              Other               Total
                                               Differential
 New Direct Loans Disbursed
 Military Housing Privatization Initiative     $         30.3    $        27.3    $          0.0   $            0.0    $         57.6
  Total                                        $         30.3    $        27.3    $          0.0   $            0.0    $         57.6
                                                   Modifica-     Interest Rate     Technical          Total
                  2012                                                                                                      Total
                                                    tions        Reestimates      Reestimates      Reestimates
 Direct Loan Modifications and Reestimates
 Military Housing Privatization Initiative $               0.0   $        (9.6)   $        (4.1)   $       (13.7)      $       (13.7)
   Total                                   $               0.0   $        (9.6)   $        (4.1)   $       (13.7)      $       (13.7)
                                                   Modifica-     Interest Rate     Technical          Total
                  2011                                                                                                      Total
                                                    tions        Reestimates      Reestimates      Reestimates
 Direct Loan Modifications and Reestimates
 Military Housing Privatization Initiative $               0.0   $        (5.5)   $     (30.8)     $       (36.3)      $       (36.3)
   Total                                   $               0.0   $        (5.5)   $     (30.8)     $       (36.3)      $       (36.3)
                                                    2012              2011
 Total Direct Loan Subsidy Expense:
 Military Housing Privatization Initiative $             29.8    $        21.3
  Total                                    $             29.8    $        21.3


 Subsidy Expense for Direct Loan by Program                                                                         Dollars in Millions
                                   Interest
                                                                     Defaults         Fees              Other               Total
 As of September 30               Differential
 Budget Subsidy Rates for Direct Loans
 Military Housing Privatization Initiative -7.26%                    10.35%           0.00%            0.00%               3.09%

Subsidy rates pertain to the loan agreements contracted during the current fiscal year.
These rates cannot be applied to the direct loans disbursed during the current reporting
year to yield the subsidy expense. The subsidy expense for new loans disbursed in the
current year results from disbursements of loans from current and prior year loan
agreements. The subsidy expense reported in the current year also includes reestimates.


                                                                                                       Financial Information
                                                                 92
Department of Defense Agency Financial Report for FY 2012


Schedule for Reconciling Subsidy Cost Allowance Balances
for Post FY 1991 Direct Loans                                                           Dollars in Millions
                                                                        2012                  2011
Beginning Balance, Changes, and Ending Balance:
Beginning Balance of the Subsidy Cost Allowance                     $          139.4 $               129.2
Add: Subsidy Expense for Direct Loans Disbursed during the Reporting Years by Component
Interest Rate Differential Costs                                                21.3                  30.3
Default Costs (Net of Recoveries)                                               22.2                  27.3
Fees and Other Collections                                                       0.0                   0.0
Other Subsidy Costs                                                              0.0                   0.0
Total of the above Subsidy Expense Components                                   43.5    $             57.6
Adjustments
Loan Modifications                                                 $              0.0   $               0.0
Fees Received                                                                     0.0                   0.0
Foreclosed Property Acquired                                                      0.0                   0.0
Loans Written Off                                                                 0.0                   0.0
Subsidy Allowance Amortization                                                  (7.1)                (11.1)
Other                                                                             0.0                   0.0
Total of the above Adjustment Components                           $            (7.1)   $            (11.1)
Ending Balance of the Subsidy Cost Allowance before Reestimates    $           175.8    $            175.7
Add or Subtract Subsidy Reestimates by Component
  Interest Rate Reestimates                                        $            (9.6)   $             (5.5)
  Technical/Default Reestimate                                                  (4.1)                (30.8)
Total of the above Reestimate Components                                       (13.7)                (36.3)
Ending Balance of the Subsidy Cost Allowance                       $           162.1    $            139.4


Defaulted Guaranteed Loans                                                              Dollars in Millions
As of September 30                                                      2012                  2011
Defaulted Guaranteed Loans from Post-FY 1991 Guarantees (Present Value Method):
Military Housing Privatization Initiative
  Defaulted Guaranteed Loans Receivable, Gross                     $            0.0     $               0.0
  Interest Receivable                                                           0.0                     0.0
  Foreclosed Property                                                           0.0                     0.0
  Allowance for Subsidy Cost (Present Value)                                    0.0                     0.0
  Value of Assets Related to Defaulted Guaranteed
                                                                   $            0.0     $               0.0
  Loans Receivable, Net
Armament Retooling & Manufacturing Support Initiative
  Defaulted Guaranteed Loans Receivable, Gross                     $            0.7     $               0.7
  Interest Receivable                                                           0.0                     0.0
  Foreclosed Property                                                           0.0                     0.0
  Allowance for Subsidy Cost (Present Value)                                  (0.7)                   (0.7)
  Value of Assets Related to Defaulted Guaranteed Loans
                                                                   $            0.0     $               0.0
  Receivable, Net
Total Value of Assets Related to Defaulted                         $            0.0     $               0.0




                                                                               Financial Information
                                                93
Department of Defense Agency Financial Report for FY 2012


Guaranteed Loans Outstanding                                                     Dollars in Millions
                                                               Outstanding            Amount of
                                                                Principal of         Outstanding
                                                             Guaranteed Loans,         Principal
As of September 30                                              Face Value           Guaranteed
                                     2012
Guaranteed Loans Outstanding
Military Housing Privatization Initiative                    $           448.4   $            448.4
Armament Retooling & Manufacturing Support Initiative                      0.0                  0.0
Total                                                        $           448.4   $            448.4

                                 2011
Guaranteed Loans Outstanding
Military Housing Privatization Initiative                    $           464.7   $            464.7
Armament Retooling & Manufacturing Support Initiative                      2.4                  2.1
Total                                                        $           467.1   $            466.8

                                     2012
New Guaranteed Loans Disbursed
Military Housing Privatization Initiative                    $             0.0   $                 0.0
Armament Retooling & Manufacturing Support Initiative                      0.0                     0.0
Total                                                        $             0.0   $                 0.0

                            2011
New Guaranteed Loans Disbursed
Military Housing Privatization Initiative                    $             0.0   $                 0.0
Armament Retooling & Manufacturing Support Initiative                      0.0                     0.0
Total                                                        $             0.0   $                 0.0



Liabilities for Loan Guarantees                                                  Dollars in Millions
As of September 30                                                2012                 2011
Liabilities for Loan Guarantee from Post 1991
(Present Value)
Military Housing Privatization Initiative                    $            11.7   $             13.7
Armament Retooling & Manufacturing Support Initiative                      1.0                  0.2
  Total Loan Guarantee Liability (Post FY 1991)              $            12.7   $             13.9
Total Loan Guarantee Liability                               $            12.7   $             13.9




                                                                         Financial Information
                                                        94
Department of Defense Agency Financial Report for FY 2012


 Subsidy Expense for Direct Loan by Program
 As of September 30                                                                                             Dollars in Millions
                                              Interest
                  2012                                             Defaults          Fees             Other             Total
                                             Differential
 New Loan Guarantees Disbursed
 Military Housing Privatization Initiative   $           0.0   $           0.0   $          0.0   $           0.0   $           0.0
 Armament Retooling &
                                                         0.0               0.0              0.0               0.0               0.0
 Manufacturing Support Initiative
   Total                                     $           0.0   $           0.0   $          0.0   $           0.0   $           0.0
                                              Interest
                  2011                                             Defaults          Fees             Other             Total
                                             Differential
 New Loan Guarantees Disbursed
 Military Housing Privatization Initiative   $           0.0   $           0.0   $          0.0   $           0.0   $           0.0
 Armament Retooling &
                                                         0.0               0.0              0.0               0.0               0.0
 Manufacturing Support Initiative
   Total                                     $           0.0   $           0.0   $          0.0   $           0.0   $           0.0
                                                 Modifica-     Interest Rate      Technical          Total
                  2012                                                                                                  Total
                                                  tions        Reestimates       Reestimates      Reestimates
 Modifications and Reestimates
 Military Housing Privatization Initiative   $           0.0   $        (0.9)    $      (1.7)     $       (2.6)     $        (2.6)
 Armament Retooling &
                                                         0.0               0.8          (0.0)                 0.8               0.8
 Manufacturing Support Initiative
   Total                                     $           0.0   $        (0.1)    $      (1.7)     $       (1.8)     $        (1.8)
                                                 Modifica-     Interest Rate      Technical          Total
                  2011                                                                                                  Total
                                                  tions        Reestimates       Reestimates      Reestimates
 Modifications and Reestimates
 Military Housing Privatization Initiative   $           0.0   $        (1.1)    $      (2.2)     $       (3.3)     $        (3.3)
 Armament Retooling &
                                                         0.0               0.0          (3.6)             (3.6)              (3.6)
 Manufacturing Support Initiative
   Total                                     $           0.0   $        (1.1)    $      (5.8)     $       (6.9)     $        (6.9)
                                                  2012              2011
 Total Loan Guarantee
 Military Housing Privatization Initiative   $         (2.6)   $        (3.3)
 Armament Retooling &
                                                         0.8            (3.6)
 Manufacturing Support Initiative
   Total                                     $         (1.8)   $        (6.9)


There are no new loan guarantees in FY2012.

 Subsidy Expense for Direct Loan by Program
                                                                                  Fees and
                                               Interest
                                                                   Defaults         other             Other             Total
                                             Supplements
 As of September 30                                                              Collections
 Budget Subsidy Rates for Loan Guarantees
 Military Housing Privatization Initiative 0.0%                     0.0%             0.0%              0.0%             0.0%
 Armament Retooling &
                                           0.0%                     0.0%             0.0%              0.0%             0.0%
 Manufacturing Support Initiative


There are no new loan guarantees in FY 2012.



                                                                                                      Financial Information
                                                               95
Department of Defense Agency Financial Report for FY 2012


 Schedule for Reconciling Loan Guarantee Liability Balances
 for Post-FY 1991 Loan Guarantees                                                       Dollars in Millions
 As of September 30                                                      2012                 2011
 Beginning Balance, Changes, and Ending Balance
 Beginning Balance of the Loan Guarantee Liability                 $           13.9 $                 19.8
 Add: Subsidy Expense for Guaranteed Loans Disbursed during the Reporting Years by Component
 Interest Supplement Costs                                           $           0.0    $               0.0
 Default Costs (Net of Recoveries)                                               0.0                    0.0
 Fees and Other Collections                                                      0.0                    0.0
 Other Subsidy Costs                                                             0.0                    0.0
 Total of the above Subsidy Expense Components                       $           0.0    $               0.0
 Adjustments
 Loan Guarantee Modifications                                        $           0.0    $              0.0
 Fees Received                                                                   0.0                   0.0
 Interest Supplements Paid                                                       0.0                   0.0
 Foreclosed Property and Loans Acquired                                          0.0                   0.0
 Claim Payments to Lenders                                                       0.0                   0.0
 Interest Accumulation on the Liability Balance                                  0.6                   1.0
 Other                                                                           0.0                   0.0
 Total of the above Adjustments                                      $           0.6    $              1.0
 Ending Balance of the Loan Guarantee Liability before Reestimates   $          14.5    $             20.8
 Add or Subtract Subsidy Reestimates by Component
 Interest Rate Reestimate                                            $          (0.1)   $             (1.1)
 Technical/Default Reestimate                                                   (1.7)                 (5.8)
 Total of the above Reestimate Components                            $          (1.8)                 (6.9)
 Ending Balance of the Loan Guarantee Liability                      $          12.7    $             13.9


Administrative Expenses are limited to separately identified expenses for administering pre-
FY 1992 and post-FY 1991 Direct Loans and Loan Guarantee Programs. The Department
does not maintain a separate program to capture the expenses related to direct loans and
loan guarantees for MHPI. Administrative expenses for the ARMS Initiative represent a fee
paid to the U.S. Department of Agriculture, Rural Business Cooperative Service for servicing
the loan guarantee program.

NOTE 9. INVENTORY AND RELATED PROPERTY
 Inventory and Related Property                                                         Dollars in Millions
 As of September 30                                                      2012                 2011
 Inventory, Net                                                      $     90,156.8     $       94,280.2
 Operating Materiel & Supplies, Net                                       152,591.5            147,731.5
 Stockpile Materiel, Net                                                      551.4                570.3
 Total Inventory and Related Property                                $    243,299.7     $      242,582.0




                                                                                Financial Information
                                                   96
Department of Defense Agency Financial Report for FY 2012


    Inventory, Net                                                                                                 Dollars in Millions
                                                                                        2012
                                                                                                                      Valuation
                                                                 Inventory,         Revaluation                        Method
                                                                                                Inventory, Net
    As of September 30                                          Gross Value          Allowance
    Inventory Categories
                                                                                                                     FIFO,LAC,
      Available and Purchased for Resale                       $        61,608.0 $      (2,602.5) $     59,005.5
                                                                                                                        MAC
      Held for Repair                                                 33,864.2          (4,143.9)       29,720.3     LAC,MAC
      Excess, Obsolete, and Unserviceable                              6,833.8          (6,833.8)            0.0        NRV
      Raw Materiel                                                     1,352.6                0.0        1,352.6    MAC,SP,LAC
      Work in Process                                                     78.4                0.0           78.4         AC
    Total Inventory, Net                                       $     103,737.0 $       (13,580.2) $     90,156.8
    Legend for Valuation Methods:
    Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses                NRV = Net Realizable Value
    SP = Standard Price                                                                          MAC = Moving Average Cost
    AC = Actual Cost



    Inventory, Net                                                                                                 Dollars in Millions
                                                                                        2011
                                                                                                                      Valuation
                                                                 Inventory,         Revaluation                        Method
                                                                                                Inventory, Net
    As of September 30                                          Gross Value          Allowance
    Inventory Categories
                                                                                                                     FIFO,LAC,
      Available and Purchased for Resale                       $        65,084.4 $         590.1 $      65,674.5
                                                                                                                        MAC
      Held for Repair                                                 30,748.1          (3,805.1)       26,943.0     LAC,MAC
      Excess, Obsolete, and Unserviceable                              7,776.0          (7,776.0)            0.0        NRV
      Raw Materiel                                                     1,373.7                0.0        1,373.7    MAC,SP,LAC
      Work in Process                                                    289.0                0.0          289.0         AC
    Total Inventory, Net                                       $     105,271.2 $       (10,991.0) $     94,280.2
    Legend for Valuation Methods:
    Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses                NRV = Net Realizable Value
    SP = Standard Price                                                                          MAC = Moving Average Cost
    AC = Actual Cost



Restrictions
The following are restrictions on the use, sale, or disposition of inventory:

•      War reserve materiel valued at $1.8 billion;
•      Commissary items valued at $398.8 million held for purchase by authorized patrons;
       and

•      Dispositions pending litigation or negotiation valued at $64.0 million.

There are no known restrictions on inventory disposition related to environmental or other
liabilities.

General Composition of Inventory
Inventory includes spare and repair parts, clothing and textiles, and fuels held for sale.
Inventory is tangible personal property that is:


                                                                                                      Financial Information
                                                                   97
Department of Defense Agency Financial Report for FY 2012


•      Held for sale, or held for repair and eventual sale;
•      In the process of production for sale; or

•      To be consumed in the production of goods for sale or in the provision of service for a
       fee.

The Department assigns inventory items to a category based upon the type and condition of
the asset.

As a result of audit readiness efforts, adjustments had to be made to mission critical asset
balances that resulted from events that could not be identified to specific accounting
periods, and those adjustments were made against current year gain/loss accounts.
Significant accounting adjustments have been made to the Department’s mission critical
assets as a result of the Department’s ongoing audit readiness efforts. These accounting
adjustments were recognized in current year gain/loss accounts when auditable data was
not available to support restatement of prior period financial statements.

    Operating Materiel and Supplies, Net                                                                          Dollars in Millions
                                                                                        2012
                                                                                                                     Valuation
                                                               OM&S, Gross          Revaluation                       Method
                                                                                                      OM&S, Net
    As of September 30                                           Value               Allowance
    Inventory Categories
      Held for Use                                             $     134,535.9 $           (28.0) $     134,507.9 SP, LAC, MAC
      Held for Repair                                                 18,882.2            (798.6)        18,083.6 SP, LAC, MAC
      Excess, Obsolete, and Unserviceable                              1,925.0          (1,925.0)             0.0      NRV
    Total OM&S                                                 $     155,343.1 $        (2,751.6) $     152,591.5
    Legend for Valuation Methods:
    Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses                 NRV = Net Realizable Value
    SP = Standard Price                                                                           MAC = Moving Average Cost



    Operating Materiel and Supplies, Net                                                                          Dollars in Millions
                                                                                        2011
                                                                                                                     Valuation
                                                               OM&S, Gross          Revaluation                       Method
                                                                                                      OM&S, Net
    As of September 30                                           Value               Allowance
    Inventory Categories
      Held for Use                                             $     131,405.5 $              0.0 $     131,405.5 SP, LAC, MAC
      Held for Repair                                                 17,561.7          (1,235.7)        16,326.0 SP, LAC, MAC
      Excess, Obsolete, and Unserviceable                              2,225.1          (2,225.1)             0.0      NRV
    Total OM&S                                                 $     151,192.3 $        (3,460.8) $     147,731.5
    Legend for Valuation Methods:
    Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses                 NRV = Net Realizable Value
    SP = Standard Price                                                                           MAC = Moving Average Cost



Restrictions
Some munitions included in Operating Materiel and Supplies (OM&S) are restricted due to
condition. Restricted munitions are considered obsolete or unserviceable when they cannot
meet performance requirements. However, obsolete and unserviceable OM&S may be used
in emergency combat situations in which no other suitable munitions are immediately
available.

                                                                                                       Financial Information
                                                                   98
Department of Defense Agency Financial Report for FY 2012


General Composition of OM&S
OM&S include spare and repair parts, ammunition, tactical missiles, aircraft configuration
pods, and centrally-managed aircraft engines held for consumption. The Department
assigns OM&S items into a category based upon the type and condition of the asset.



 Stockpile Materiel, Net                                                                    Dollars in Millions
                                                                2012
                                              Stockpile,   Allowance for     Stockpile,        Valuation
                                               Materiel         Gains        Materiel,          Method
 As of September 30                            Amount         (Losses)          Net
 Stockpile Materiel Categories
   Held for Sale                          $         522.1 $          0.0 $          522.1       AC, LCM
   Held for Reserve for Future Sale                  29.3            0.0             29.3       AC, LCM
 Total Stockpile Materiel                 $         551.4 $          0.0 $          551.4
 Legend for Valuation Methods:
 AC = Actual Cost                                                          LCM = Lower of Cost or Market



 Stockpile Materiel, Net                                                                    Dollars in Millions
                                                                2011
                                              Stockpile,   Allowance for     Stockpile,        Valuation
                                               Materiel         Gains        Materiel,          Method
 As of September 30                            Amount         (Losses)          Net
 Stockpile Materiel Categories
   Held for Sale                          $         541.0 $          0.0 $          541.0       AC, LCM
   Held for Reserve for Future Sale                  29.3            0.0             29.3       AC, LCM
 Total Stockpile Materiel                 $         570.3 $          0.0 $          570.3
 Legend for Valuation Methods:
 AC = Actual Cost                                                          LCM = Lower of Cost or Market



Restrictions
Materiel held by the National Defense Stockpile (NDS) is restricted unless released by
congressional action and made available for sale on the open market. Stockpile materiel
may not be disposed except for: (1) necessary upgrading, refining, or processing;
(2) necessary rotation to prevent deterioration; (3) determination as excess with potential
financial loss if retained; or (4) authorization by law.
Before selling any materiel, Congress must enact specific enabling legislation (e.g., the
National Defense Authorization Act). When authorized to offer materiel for sale, NDS
removes the materiel from Materiel Held in Reserve and reclassifies these items as Materiel
Held for Sale. The estimated market price of the stockpile materiel held for sale as of
3rd Quarter, FY 2012, is $1.4 billion.

General Composition of Stockpile Materiel
Due to statutory requirements, the Department holds strategic and critical stockpile
materiel for use in national defense, conservation, or national emergencies.


                                                                               Financial Information
                                              99
Department of Defense Agency Financial Report for FY 2012


NOTE 10. GENERAL PP&E, NET
 General PP&E, Net                                                                                          Dollars in Millions
                                                                                    2012
                                             Depreciation/                                      (Accumulated
                                                                                  Acquisition                       Net Book
                                             Amortization     Service Life                      Depreciation/
                                                                                    Value                            Value
 As of September 30                            Method                                           Amortization)
 Major Asset Classes
 Land                                            N/A              N/A         $    10,706.2              N/A    $      10,706.2
 Buildings, Structures, and Facilities           S/L           20 or 40           248,871.1       (120,845.8)         128,025.3
 Leasehold Improvements                          S/L          Lease term              880.5           (302.2)             578.3
 Software                                        S/L          2 – 5 or 10          11,324.7         (7,640.2)           3,684.5
 General Equipment                               S/L            5 or 10           105,745.4        (69,931.6)          35,813.8
 Military Equipment                              S/L           Various            878,687.7       (500,413.0)         378,274.7
                             1
 Assets Under Capital Lease                      S/L          Lease term              901.4           (520.4)             381.0
 Construction-in-Progress                        N/A              N/A              42,825.7              N/A           42,825.7
 Other                                                                              1,171.4             (2.9)           1,168.5
 Total General PP&E                                                           $ 1,301,114.1     $ (699,656.1)   $     601,458.0
 1
  Note 15 for additional information on Capital Leases
 Legend for Valuation Methods: S/L = Straight Line N/A = Not Applicable



 General PP&E, Net                                                                                          Dollars in Millions
                                                                             Restated 2011
                                             Depreciation/                                      (Accumulated
                                                                                  Acquisition                       Net Book
                                             Amortization     Service Life                      Depreciation/
                                                                                    Value                            Value
 As of September 30                            Method                                           Amortization)
 Major Asset Classes
 Land                                            N/A              N/A         $    10,577.1              N/A    $      10,577.1
 Buildings, Structures, and Facilities           S/L           20 or 40           230,160.8       (118,526.4)         111,634.4
 Leasehold Improvements                          S/L          Lease term            1,032.2           (452.7)             579.5
 Software                                        S/L          2 – 5 or 10          10,027.4         (6,932.4)           3,095.0
 General Equipment                               S/L            5 or 10            92,368.7        (64,943.0)          27,425.7
 Military Equipment                              S/L           Various            854,180.3       (446,334.0)         407,846.3
                             1
 Assets Under Capital Lease                      S/L          Lease term            1,182.3           (748.6)             433.7
 Construction-in-Progress                        N/A              N/A              46,507.2              N/A           46,507.2
 Other                                                                              1,201.4             (1.8)           1,199.6
 Total General PP&E                                                           $ 1,247,237.4     $ (637,938.9)   $     609,298.5
 1
  Note 15 for additional information on Capital Leases
 Legend for Valuation Methods: S/L = Straight Line N/A = Not Applicable



Restatements
The Department corrected a $1.0 billion understatement of General Property, Plant and
Equipment to align the accounting records to the property accountability system. Refer to
Note 26, Restatements, for further information.

Other Disclosures
The Department has use of overseas land, buildings, and other facilities obtained through
international treaties and agreements negotiated by the Department of State. Treaty


                                                                                                  Financial Information
                                                             100
Department of Defense Agency Financial Report for FY 2012


covenants restrict the Department’s use and disposal of real property (land and buildings)
located outside the United States.

The Department does not have the acquisition value for all General PP&E and uses several
cost methodologies to provide General PP&E values for financial statement reporting
purposes. The discovery and validation phases are identifying adjustments to values
resulting in current year gains/losses.

Other consists of assets awaiting disposition.

Heritage Assets and Stewardship Land
The Department’s policy is to preserve its heritage assets, which are items of historical,
cultural, educational, or artistic importance.

The mission of the Department is to provide the military forces necessary to deter war and
protect the security of the United States. In that mission, the Department, with minor
exceptions, uses most of the buildings and stewardship land in its daily activities and
includes the buildings on the Balance Sheet as multi-use heritage assets (capitalized and
depreciated).

Differences in the heritage assets and stewardship land quantities from the FY 2011 ending
to the FY 2012 beginning unit counts resulted from efforts to improve quality of reported
data.

Heritage assets within the Department consist of buildings and structures, archeological
sites, and museum collections. The Department defines these as follows:

•     Buildings and Structures. Buildings and structures that are listed, or eligible for listing,
      on the National Register of Historic Places, including Multi-Use Heritage Assets.

•     Archeological Sites. Sites that have been identified, evaluated, and determined to be
      eligible for or are listed on the National Register of Historic Places in accordance with
      Section 110 National Historic Preservation Act.

•     Museum Collection Items. Items which are unique for one or more of the following
      reasons: historical or natural significance; cultural, educational, or artistic importance;
      or significant technical or architectural characteristics.

The Department is unable to identify all quantities of heritage assets and stewardship land
added through donation or devise in FY 2012 due to limitations of the Department’s financial
and nonfinancial management processes and systems that feed the financial statements.

                                        Measure       As of                                  As of
    Categories                                                    Additions    Deletions
                                        Quantity     9/30/11                                9/30/12
    Buildings and Structures             Each            58,603         859         3,287      56,175
    Archeological Sites                  Each            30,637         633         1,357      29,913
    Museum Collection Items
                                         Each        1,367,534        28,272      163,580   1,232,226
    (Objects, not including fine art)
    Museum Collection Items (Objects,
                                         Each            51,296        2,222         125       53,393
    fine art)




                                                                                Financial Information
                                                   101
Department of Defense Agency Financial Report for FY 2012


Stewardship land is land and land rights owned by the Department, but not acquired for, or
in connection with, items of General Property, Plant, and Equipment. All land provided to
the Department from the public domain or at no cost, regardless of its use, is classified as
Stewardship Land.

Stewardship land is presented in context of all categories of the Department's lands and
reported in acres based on the predominant use of the land. The three categories of
Stewardship land held in public trust are: State-Owned Land, Withdrawn Public-Land, and
Public Land.

The Department’s stewardship land consists mainly of mission essential land.

                                                   As of
 Facility             Predominant Land Use        9/30/11                                     As of
                                                               Additions    Deletions
  Code                     Categories             (Acres in                                  9/30/12
                                                 Thousands)
 9110        Government Owned Land                     6,505           93            47           6,551
 9111        State Owned Land                              7            0             2               5
 9120        Withdrawn Public Land                    16,135            0         1,421          14,714
 9130        Licensed and Permitted Land               2,362          461         1,906             917
 9140        Public Land                                 202            0             0             202
 9210        Land Easement                               376            3             1             378
 9220        In-leased Land                              226           10           112             124
 9230        Foreign Land                                454            0           157             297
             Grand Total                                                                         23,188
             Total – All Other Lands                                                              8,267
             Total – Stewardship Lands                                                           14,921


 Assets Under Capital Lease                                                           Dollars in Millions

 As of September 30                                                     2012                2011
 Entity as Lessee, Assets Under Capital Lease
   Land and Buildings                                             $           273.0   $            538.8
   Equipment                                                                  628.4                643.5
   Accumulated Amortization                                                 (520.4)              (748.6)
   Total Capital Leases                                           $           381.0   $            433.7




                                                                               Financial Information
                                                102
Department of Defense Agency Financial Report for FY 2012


NOTE 11. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES
 Liabilities Not Covered by Budgetary Resources                                  Dollars in Millions

 As of September 30                                                2012                2011
 Intragovernmental Liabilities
  Accounts Payable                                            $           12.9   $             9.2
  Debt                                                                     4.3                 5.1
  Other                                                                2,141.0             2,142.1
  Total Intragovernmental Liabilities                         $        2,158.2   $         2,156.4
 Non-Federal Liabilities
  Accounts Payable                                            $           53.0   $          692.2
  Military Retirement and Other Federal Employment Benefits        1,771,202.7        1,656,021.3
  Environmental Liabilities                                           57,911.8           60,567.0
  Other Liabilities                                                   16,323.7           17,186.6
  Total Non-Federal Liabilities                               $    1,845,491.2   $    1,734,467.1
 Total Liabilities Not Covered by Budgetary Resources         $    1,847,649.4   $    1,736,623.5
 Total Liabilities Covered by Budgetary Resources             $      610,347.4   $      614,893.4
 Total Liabilities                                            $    2,457,996.8   $    2,351,516.9


Liabilities Not Covered by Budgetary Resources includes liabilities requiring congressional
action before budgetary resources can be provided.

Abnormal Balance
Total Liabilities Covered by Budgetary Resources includes an abnormal balance of
$6.2 million in USSGL account 2140, Accrued Interest Payable. This is primarily due to
improper posting of accounting transactions.

Other Disclosures
Intragovernmental Accounts Payable represents subsidy payments for the Military Housing
Privatization Initiative and liabilities in canceled appropriations that, if paid, will be
disbursed using current year funds.

Non-Federal Accounts Payable primarily represents liabilities in canceled appropriations that,
if paid, will be disbursed using current year funds.
Debt consists primarily of borrowing from the U.S. Treasury for capital improvements to the
Washington Aqueduct Project. Arlington County and Falls Church, Virginia, will complete
reimbursement to the Department by 2023.

Environmental Liabilities represents the Department’s liability for existing and anticipated
environmental clean-up and disposal.
Intragovernmental Liabilities, Other primarily consists of unfunded liabilities for Federal
Employees Compensation Act, Unemployment Insurance, and Judgment Fund.
Non-Federal Liabilities, Other primarily consists of unfunded annual leave, contingent
liabilities, and expected expenditures for disposal of conventional munitions.




                                                                          Financial Information
                                                    103
Department of Defense Agency Financial Report for FY 2012


Military Retirement and Other Federal Employment Benefits consists of various employee
actuarial liabilities not due and payable during the current fiscal year. These liabilities
primarily consist of $1.1 trillion in pension liabilities and $656.3 billion in health benefit
liabilities. Refer to Note 17, Military Retirement and Other Federal Employment Benefits, for
additional details and disclosures.

NOTE 12. ACCOUNTS PAYABLE
 Accounts Payable                                                                    Dollars in Millions
                                                             2012
                                                      Interest, Penalties,
                               Accounts Payable       and Administrative              Total
 As of September 30                                          Fees
 Intragovernmental Payables    $            1,762.9                    N/A     $               1,762.9
 Non-Federal Payables
                                           19,498.2                   (6.2)                  19,492.0
 (To the Public)
 Total Accounts Payable        $           21,261.1   $               (6.2)    $              21,254.9


 Accounts Payable                                                                    Dollars in Millions
                                                             2011
                                                      Interest, Penalties,
                               Accounts Payable       and Administrative              Total
 As of September 30                                          Fees
 Intragovernmental Payables    $            1,893.2                    N/A     $               1,893.2
 Non-Federal Payables
                                           26,102.4                    1.5                    26,103.9
 (To the Public)
 Total Accounts Payable        $           27,995.6   $                1.5     $              27,997.1


Accounts Payable include amounts owed to Federal and non-Federal entities for goods and
services received by the Department. The Department’s systems do not track
intragovernmental transactions by customer at the transaction level. Buyer-side accounts
payable are adjusted to agree with interagency seller-side accounts receivable. Accounts
Payable was adjusted by reclassifying amounts between Federal and non-Federal accounts
payable, accruing additional accounts payable and expenses, and applying both supported
and unsupported undistributed disbursements at the reporting entity level.

Abnormal Balance
Non-Federal Payables, interest, penalties, and administrative fees, includes an abnormal
balance of $6.2 million in USSGL account 2140 (Accrued Interest Payable). This is primarily
due to an improper posting of accounting transactions.




                                                                              Financial Information
                                             104
Department of Defense Agency Financial Report for FY 2012


NOTE 13. DEBT
 Debt                                                                                            Dollars in Millions
                                                                       2012
 As of September 30                  Beginning Balance            Net Borrowing           Ending Balance
 Agency Debt (Intragovernmental)
  Debt to the Treasury               $                783.4   $              169.2    $                      952.6
 Total Agency Debt                   $                783.4   $              169.2    $                      952.6


 Debt                                                                                            Dollars in Millions
                                                                       2011
 As of September 30                  Beginning Balance            Net Borrowing           Ending Balance
 Agency Debt (Intragovernmental)
  Debt to the Treasury               $                518.3   $              265.1    $                      783.4
 Total Agency Debt                   $                518.3   $              265.1    $                      783.4


The Department’s debt consists of interest and principal payments due to the U.S. Treasury.
The Department borrows funds for the Military Housing Privatization Initiative and the
Washington Aqueduct Capital Improvements Project.
The Department must pay the debt on direct loans if borrowers (e.g. county or city
governments, or housing builders) default. For loan guarantees, the Department must pay
the amount of outstanding principal guaranteed.

NOTE 14. ENVIRONMENTAL LIABILITIES AND DISPOSAL LIABILITIES

 Environmental Liabilities and Disposal Liabilities                                          Dollars in Millions
 As of September 30                                                          2012                    2011
 Environmental Liabilities–Non-Federal
  Accrued Environmental Restoration Liabilities
    Active Installations – Installation Restoration Program (IRP) and
                                                                        $         10,571.0   $           11,043.3
    Building Demolition and Debris Removal (BD/DR)
    Active Installations – Military Munitions Response Program (MMRP)              3,953.9                4,120.0
    Formerly Used Defense Sites – IRP & BD/DR                                      3,063.4                3,295.4
    Formerly Used Defense Sites – MMRP                                            10,842.6               10,990.0
  Other Accrued Environmental Liabilities – Non-BRAC
     Environmental Corrective Action                                    $            786.4   $              500.2
     Environmental Closure Requirements                                            1,838.8                1,968.6
     Environmental Response at Operational – Ranges                                   93.7                   95.2
     Asbestos                                                                      1,057.4                1,485.0
     Non-Military Equipment                                                          554.1                  548.2
     Other                                                                         1,121.7                1,079.9
   Base Realignment and Closure Installations (BRAC)
     Installation Restoration Program                                   $          3,388.2   $            3,743.0
     Military Munitions Response Program                                             703.1                  707.3
     Environmental Corrective Action/Closure Requirements                            159.5                  309.9
     Asbestos                                                                          0.3                    0.0


                                                                                     Financial Information
                                                    105
Department of Defense Agency Financial Report for FY 2012


 Environmental Liabilities and Disposal Liabilities                                     Dollars in Millions
 As of September 30                                                        2012               2011
   Environmental Disposal for Military Equipment/Weapons Programs
     Nuclear Powered Military Equipment/Spent Nuclear Fuel             $    14,055.9    $        13,637.3
     Non-Nuclear Powered Military Equipment                                     36.4                 36.4
     Other Weapons Systems                                                     146.0                161.0
   Chemical Weapons Disposal Program
     Chemical Demilitarization – Chemical Materials Agency (CMA)       $     3,691.1    $         4,592.0
     CAMD Demilitarization – Assembled Chemical Weapons Alternatives
                                                                             6,539.1              6,510.4
     (ACWA)
 Total Environmental Liabilities                                       $    62,602.6    $        64,823.1


Other Accrued Environmental Liabilities, Non-Base Realignment and Closure (BRAC), Other
primarily consists of remediation related to Formerly Utilized Sites Remedial Action Program
(FUSRAP). The Department is responsible for FUSRAP, which remediates radiological
contamination from the Department of Energy’s U.S. Atomic Energy and Weapons Program.

The unrecognized portion of the estimated total clean-up costs associated with General
Property, Plant, and Equipment (PP&E) is $3.2 billion for FY 2012. Not all components of the
Department are able to compile the necessary information for this disclosure, thus the
amount reported may not accurately reflect the Department’s total unrecognized costs
associated with General PP&E. The Department is implementing procedures to address
these deficiencies.

OTHER DISCLOSURES
Types of Environmental Liabilities and Disposal Liabilities Identified
The Department has clean up requirements for the Defense Environmental Restoration
Program (DERP) sites at active installations, Base Realignment and Closure installations,
Formerly Used Defense Sites, sites at active installations that are not covered by DERP,
weapon systems programs, and chemical weapons disposal programs. The weapons
systems program consists of chemical weapons disposal, nuclear powered aircraft carriers,
nuclear powered submarines, and other nuclear ships. All cleanup efforts are performed in
coordination with regulatory agencies, other responsible parties, and current property
owners.

Applicable Laws and Regulations for Cleanup Requirements
The Department is required to clean up contamination resulting from past waste disposal
practices, leaks, spills, and other past activity that created a public health or environmental
risk. The Department accomplishes this effort in coordination with regulatory agencies and,
if applicable, other responsible parties and current property owners. The Department is also
required to recognize closure and post-closure costs for its General PP&E and environmental
corrective action costs for current operations. Each of the Department’s major reporting
entities is responsible for tracking and reporting all required environmental information
related to environmental restoration costs, other accrued environmental costs, disposal
costs of weapon systems, and environmental costs related to BRAC actions that have taken


                                                                                  Financial Information
                                                   106
Department of Defense Agency Financial Report for FY 2012


place.
The Department follows the Comprehensive Environmental Response, Compensation, and
Liability Act (CERCLA), Superfund Amendment and Reauthorization Act, Resource
Conservation and Recovery Act (RCRA) or other applicable Federal or state laws to clean up
contamination. The CERCLA and RCRA require the Department to clean up contamination in
coordination with regulatory agencies, current owners of property damaged by the
Department, and third parties that have a partial responsibility for the environmental
restoration. Failure to comply with agreements and legal mandates puts the Department at
risk of incurring fines and penalties.

The clean-up requirements for nuclear-powered aircraft carriers, submarines, and other
nuclear ships are based on laws that affect the Department’s conduct of environmental
policy and regulations. The Atomic Energy Act of 1954, as amended, assures the proper
management of source, special nuclear, and byproduct materiel.

As in all cases with nuclear power, the Department coordinates actions with the Department
of Energy. The Nuclear Waste Policy Act of 1982 requires all owners and generators of high-
level nuclear waste and spent nuclear fuel to pay their respective shares of the full cost of
the program.

Finally, the Low-Level Radioactive Waste Policy Amendments Act of 1986 provides for the
safe and efficient management of low-level radioactive waste.

The Chemical Weapons Disposal Program is based on FY 1986 National Defense
Authorization Act (Public Law 99-145, as amended) that directed the Department to destroy
the unitary chemical stockpile in accordance with the requirements of the Chemical
Weapons Convention Treaty.

Methods for Assigning Total Cleanup Costs to Current Operating
Periods
The Department uses engineering estimates and independently validated models to
estimate environmental costs. The models include the Remedial Action Cost Engineering
Requirements application and the Normalization of Data System. The Department validates
the models in accordance with DoD Instruction 5000.61 and uses the models to estimate
the liabilities based on data received during a preliminary assessment and initial site
investigation. The Department primarily uses engineering estimates after obtaining
extensive data during the remedial investigation/feasibility phase of the environmental
project.
Once the environmental cost estimates are complete, the Department complies with accounting
standards to assign costs to current operating periods. The Department has already expensed
the costs for cleanup associated with General PP&E placed into service prior to October 1, 1997,
unless the costs are intended to be recovered through user charges. If the costs are recovered
through user charges, the Department expenses cleanup costs associated with that portion of
the asset life that has passed since the General PP&E was placed into service. The Department
systematically recognizes the remaining cost over the life of the assets.
For General PP&E placed into service after September 30, 1997, the Department expenses


                                                                          Financial Information
                                              107
Department of Defense Agency Financial Report for FY 2012


associated environmental costs systematically over the life of the asset using two methods:
physical capacity for operating landfills and life expectancy in years for all other assets. The
Department expenses the full cost to clean up contamination for Stewardship PP&E at the
time the asset is placed into service.

Nature of Estimates and the Disclosure of Information Regarding
Possible Changes Due to Inflation, Deflation, Technology, or
Applicable Laws and Regulations
The Department had changes in estimates resulting from overlooked or previously unknown
contaminants, re-estimation based on different assumptions, and other changes in project
scope. Environmental liabilities may change in the future due to changes in laws and
regulation, changes in agreements with regulatory agencies, and advances in technology.

Uncertainty Regarding the Accounting Estimates Used to Calculate
the Reported Environmental Liabilities
The environmental liabilities for the Department are based on accounting estimates, which
require certain judgments and assumptions that are reasonable based upon information
available at the time the estimates are calculated. The actual results may materially vary
from the accounting estimates if agreements with regulatory agencies require remediation
to a different degree than anticipated when calculating the estimates. Liabilities can be
further affected if investigation of the environmental sites reveals contamination levels that
differ from the estimate parameters.

The Department has a liability to take environmental restoration and corrective action for
buried chemical munitions and agents; however, it is unable to estimate at this time
because the extent of the buried chemical munitions and agents is unknown. The
Department is also unable to provide a complete estimate for FUSRAP. The Department has
ongoing studies and will update its estimate as additional liabilities are identified. In
addition, not all components of the Department recognize environmental liabilities
associated with General PP&E due to process and system limitations.

The Department has the potential to incur costs for restoration initiatives in conjunction with
returning overseas Defense facilities to host nations. The Department is unable to provide a
reasonable estimate at this time because the extent of required restoration is unknown.




                                                                          Financial Information
                                              108
Department of Defense Agency Financial Report for FY 2012


NOTE 15. OTHER LIABILITIES
Other Liabilities                                                                         Dollars in Millions
                                                                  2012
                                                               Noncurrent
                                     Current Liability                                     Total
As of September 30                                              Liability
Intragovernmental
 Advances from Others            $               1,185.8   $                 0.0    $               1,185.8
 Deposit Funds and Suspense
                                                  153.3                      0.0                      153.3
 Account Liabilities
 Disbursing Officer Cash                         1,889.4                     0.0                    1,889.4
 Judgment Fund Liabilities                         328.1                     0.0                      328.1
 FECA Reimbursement to the
                                                  616.9                 756.1                       1,373.0
 Department of Labor
 Custodial Liabilities                           4,647.9               2,508.0                      7,155.9
 Employer Contribution and
                                                  365.6                      0.0                      365.6
 Payroll Taxes Payable
 Other Liabilities                                 490.5                   0.0                       490.5
 Total Intragovernmental Other   $               9,677.5   $           3,264.1      $             12,941.6
Non-Federal
 Accrued Funded Payroll and
                                 $               9,387.2   $                 0.0    $               9,387.2
 Benefits
 Advances from Others                            4,225.2                     0.0                    4,225.2
 Deferred Credits                                    0.0                     0.0                        0.0
 Deposit Funds and Suspense
                                                  473.1                      0.0                      473.1
 Accounts
 Nonenvironmental Disposal
 Liabilities
    Military Equipment
                                                  151.3                     26.5                      177.8
    (Nonnuclear)
    Excess/Obsolete Structures                      66.1                525.6                         591.7
    Conventional Munitions
                                                     0.0               2,136.6                      2,136.6
    Disposal
 Accrued Unfunded Annual Leave                  10,638.2                     0.0                   10,638.2
 Capital Lease Liability                           184.0                    22.3                      206.3
 Contract Holdbacks                                964.2                     0.2                      964.4
 Employer Contribution and
                                                  371.4                      0.0                      371.4
 Payroll Taxes Payable
 Contingent Liabilities                           531.9                6,421.2                      6,953.1
 Other Liabilities                                182.6                    0.5                        183.1
 Total Non-Federal Other
                                 $              27,175.2   $           9,132.9      $             36,308.1
 Liabilities
Total Other Liabilities          $              36,852.7   $          12,397.0      $             49,249.7




                                                                                   Financial Information
                                                 109
Department of Defense Agency Financial Report for FY 2012


Other Liabilities                                                                          Dollars in Millions
                                                                   2011
                                                                Noncurrent
                                      Current Liability                                     Total
As of September 30                                               Liability
Intragovernmental
  Advances from Others            $               1,548.6   $                 0.0    $               1,548.6
  Deposit Funds and Suspense                      1,799.8                     0.0                    1,799.8
  Account Liabilities
  Disbursing Officer Cash                         1,828.9                  0.0                       1,828.9
  Judgment Fund Liabilities                         260.6                  0.0                         260.6
  FECA Reimbursement to the                         607.1                776.4                       1,383.5
  Department of Labor
  Custodial Liabilities                           3,949.3               2,533.8                      6,483.1
  Employer Contribution and                         352.2                   0.0                        352.2
  Payroll Taxes Payable
  Other Liabilities                                 575.0                   0.0                        575.0
  Total Intragovernmental Other   $              10,921.5   $           3,310.2      $              14,231.7
Non-Federal
  Accrued Funded Payroll and
                                  $               5,703.1   $                 0.0    $               5,703.1
  Benefits
  Advances from Others                            4,279.2                     0.0                    4,279.2
  Deferred Credits                                    0.0                     0.0                        0.0
  Deposit Funds and Suspense
                                                   164.8                      0.0                      164.8
  Accounts
  Nonenvironmental Disposal
  Liabilities
     Military Equipment
                                                     12.8                207.6                         220.4
     (Nonnuclear)
     Excess/Obsolete Structures                       3.2                535.4                         538.6
     Conventional Munitions
                                                      0.0               2,752.4                      2,752.4
     Disposal
  Accrued Unfunded Annual Leave                  10,211.5                     0.0                   10,211.5
  Capital Lease Liability                           208.1                    29.6                      237.7
  Contract Holdbacks                                806.2                     0.3                      806.5
  Employer Contribution and
                                                   373.9                      0.0                      373.9
  Payroll Taxes Payable
  Contingent Liabilities                          1,581.1               4,288.3                      5,869.4
  Other Liabilities                                 150.1                   0.5                        150.6
  Total Non-Federal Other
                                  $              23,494.0   $           7,814.1      $             31,308.1
  Liabilities
Total Other Liabilities           $              34,415.5   $          11,124.3      $              45,539.8




                                                                                    Financial Information
                                                  110
Department of Defense Agency Financial Report for FY 2012


 Capital Lease Liability                                                                        Dollars in Millions
                                                                     2012 – Asset Category
                                                   Land and
                                                                    Equipment       Other             Total
 As of September 30                                Buildings
 Future Payments Due
   2013                                           $        17.5 $           0.1 $            2.8 $          20.4
   2014                                                    19.6             0.0              1.1            20.7
   2015                                                    19.1             0.0              0.0            19.1
   2016                                                    10.4             0.0              0.0            10.4
   2017                                                    11.7             0.0              0.0            11.7
   After 5 Years                                          126.9             0.0              0.0           126.9
   Total Future Lease Payments Due                $       205.2 $           0.1 $            3.9 $         209.2
   Less: Imputed Interest Executory Costs                   2.9             0.0              0.0             2.9
 Net Capital Lease Liability                      $       202.3 $           0.1 $            3.9 $         206.3
 Capital Lease Liabilities Covered by Budgetary Resources                                                  206.3
 Capital Lease Liabilities Not Covered by Budgetary Resources                                                0.0


 Capital Lease Liability                                                                        Dollars in Millions
                                                                     2011 – Asset Category
                                                   Land and
                                                                    Equipment       Other             Total
 As of September 30                                Buildings
 Future Payments Due
   2012                                           $        46.2 $           0.1 $            9.7 $           56.0
   2013                                                    22.8             0.1              2.8             25.7
   2014                                                    18.9             0.0              2.6             21.5
   2015                                                    18.9             0.0              0.0             18.9
   2016                                                    19.1             0.0              0.0             19.1
   After 5 Years                                          138.6             0.0              0.0            138.6
   Total Future Lease Payments Due                $       264.5 $           0.2 $           15.1 $          279.8
   Less: Imputed Interest Executory Costs                  42.1             0.0              0.0             42.1
 Net Capital Lease Liability                      $       222.4 $           0.2 $           15.1 $          237.7
 Capital Lease Liabilities Covered by Budgetary Resources                                                   237.7
 Capital Lease Liabilities Not Covered by Budgetary Resources                                                 0.0


Intragovernmental Other Liabilities primarily consists of unemployment compensation
liabilities.

Non-Federal Other Liabilities primarily consist of estimated costs for services provided;
accrued liabilities for inventory owned and managed on behalf of foreign governments; and
undistributed international tariff receipts.
Contingent Liabilities includes $3.4 billion related to contracts authorizing progress
payments based on cost as defined in the Federal Acquisition Regulation (FAR). In
accordance with contract terms, specific rights to contractors’ work vests with the Federal
Government when a specific type of contract financing payment is made. This action
protects taxpayer funds in the event of contract nonperformance. These rights should not
be misconstrued as rights of ownership. The Department is under no obligation to pay
contractors for amounts greater than the amounts authorized in contracts until delivery and
government acceptance. Due to the probability the contractors will complete their efforts


                                                                                    Financial Information
                                                  111
Department of Defense Agency Financial Report for FY 2012


and deliver satisfactory products, and because the amount of contractor costs incurred but
yet unpaid are estimable, the Department has recognized a contingent liability for the
estimated unpaid costs that are considered conditional for payment pending delivery and
government acceptance.

Total contingent liabilities for progress payments based on cost represent the difference
between the estimated costs incurred to date by contractors and amounts authorized to be
paid under progress payments based on cost provisions within the FAR. Estimated
contractor-incurred costs are calculated by dividing the cumulative unliquidated progress
payments based on cost by the contract-authorized progress payment rate. The balance of
unliquidated progress payments based on cost is deducted from the estimated total
contractor-incurred costs to determine the contingency amount.

NOTE 16. COMMITMENTS AND CONTINGENCIES
Legal Contingencies
The Department is a party in various administrative proceedings and legal actions related to
claims for environmental damage, equal opportunity matters, and contractual bid protests.
The Department has accrued contingent liabilities for legal actions where the Office of
General Counsel (OGC) considers an adverse decision probable and the amount of loss is
measurable. In the event of an adverse judgment against the Government, some of the
liabilities may be payable from the U.S. Treasury Judgment Fund. The Department records
contingent liabilities in Note 15, Other Liabilities.

The Department reports 48 legal actions with individual claims greater than the
Department’s FY 2012 materiality threshold of $140.3 million. The total of the 48 actions is
approximately $13.0 trillion. Of this amount, the OGC determined that claims totaling
approximately $8.6 billion are classified “reasonably possible,” $956.7 billion are classified
“remote,” and $12.0 trillion are classified “unable to determine the probability of loss.” The
Department also had a number of potential claims that individually did not meet the
Department’s materiality threshold but did meet the individual Components’ thresholds.
These claims are disclosed in the Components' financial statements.

Other Commitments and Contingencies
The Department is a party in numerous individual contracts that contain clauses, such as
price escalation, award fee payments, or dispute resolution, that may result in a future
outflow of expenditures. Currently, the Department has limited automated system
processes by which it captures or assesses these potential contingent liabilities, therefore,
the amounts reported may not fairly present the Department’s contingent liabilities.
Contingencies considered both measurable and probable have been recognized as liabilities.
Refer to Note 15, Other Liabilities, for further information.




                                                                        Financial Information
                                             112
Department of Defense Agency Financial Report for FY 2012


NOTE 17. MILITARY RETIREMENT AND OTHER FEDERAL EMPLOYMENT
BENEFITS
Military Retirement and Other Federal Employment Benefits                                                  Dollars in Millions
                                                                                 2012
                                                                            (Less: Assets
                                                                                                          Unfunded
                                                Liabilities                Available to Pay
                                                                                                          Liabilities
As of September 30                                                            Benefits)
Pension and Health Benefits
 Military Retirement Pensions             $            1,477,918.0     $            (371,657.5)      $         1,106,260.5
 Military Retirement Health
                                                         298,216.9                           0.0                 298,216.9
 Benefits
 Military Medicare-Eligible Retiree
                                                         532,781.3                  (174,703.7)                  358,077.6
 Benefits
Total Pension and Health
                                          $            2,308,916.2     $            (546,361.2)      $         1,762,555.0
Actuarial Benefits
Other Benefits
 FECA                                     $                 6,540.8    $                     0.0     $              6,540.8
 Voluntary Separation Incentive
                                                              678.2                      (308.5)                        369.7
 Programs
 DoD Education Benefits Fund                               1,385.4                      (1,385.4)                       0.0
 Other                                                     6,403.7                      (4,666.3)                   1,737.4
 Total Other Benefits                     $               15,008.1     $                (6,360.2)    $              8,647.9
Total Military Retirement and
Other Federal Employment                  $            2,323,924.3     $            (552,721.4)      $         1,771,202.9
Benefits
Actuarial Cost Method Used: Aggregate Entry-Age Method
Assumptions: Effective Interest
Market Value of Investments in Market-based and Marketable Securities: $807.7 billion



Military Retirement and Other Federal Employment Benefits                                                  Dollars in Millions
                                                                                 2011
                                                                            (Less: Assets
                                                                                                          Unfunded
                                                Liabilities                Available to Pay
                                                                                                          Liabilities
As of September 30                                                            Benefits)
Pension and Health Actuarial Benefits
 Military Retirement Pensions             $            1,360,922.5     $            (368,236.0)      $           992,686.5
 Military Retirement Health
                                                         305,985.0                           0.0                 305,985.0
 Benefits
 Military Medicare-Eligible Retiree
                                                         533,667.7                  (184,914.3)                  348,753.4
 Benefits
Total Pension and Health
                                          $            2,200,575.2     $            (553,150.3)      $         1,647,424.9
Actuarial Benefits
Other Actuarial Benefits
  FECA                                    $                 6,366.4    $                     0.0     $              6,366.4
  Voluntary Separation Incentive
                                                              770.1                      (348.6)                        421.5
  Programs
  DoD Education Benefits Fund                              1,773.6                    (1,773.6)                        0.0
  Other                                                    2,874.3                    (1,065.8)                    1,808.5
  Total Other Actuarial Benefits          $               11,784.4     $              (3,188.0)      $             8,596.4
Total Military Retirement and             $            2,212,359.6     $            (556,338.3)      $         1,656,021.3


                                                                                                    Financial Information
                                                            113
Department of Defense Agency Financial Report for FY 2012


 Other Federal Employment
 Benefits
 Actuarial Cost Method Used: Aggregate Entry-Age Method
 Assumptions: Effective Interest
 Market Value of Investments in Market-based and Marketable Securities: $662.4 billion



 Military Retirement and Other Federal Employment Benefits                                                         Dollars in Millions
                                                                                     2012
                                                                Military Pre-
                                                                                    Military
                                                                  Medicare                            Voluntary
                                                  Military                         Medicare-                              DoD
                                                                  Eligible                            Separation
                                                Retirement                          Eligible                           Education
                                                                   Retiree                             Incentive
                                                 Pensions                        Retiree Health                       Benefits Fund
                                                                   Health                             Programs
                                                                                   Benefits
 As of September 30                                               Benefits
 Beginning Actuarial Liability              $ 1,360,922.5       $ 305,985.0      $ 533,667.7      $        770.1      $     1,773.6
 Normal Cost Liability                           30,563.7          10,700.7          10,958.3                 0.0             299.0
 Interest Cost                                   64,807.2          15,237.2          26,457.4                27.1               78.2
 Plan Amendments                                       0.0           1,384.1       (33,269.9)                 0.0                0.0
 Experience Losses (Gains)                       (3,202.1)         (5,611.4)        (6,682.4)              (14.2)             (93.4)
 Other factors                                         0.2               (0.0)            0.1               (0.1)           (259.7)
 Subtotal: Expenses before
 Losses (Gains) from Actuarial                     92,169.0          21,710.6         (2,536.5)              12.8               24.1
 Assumption Changes
 Actuarial (Gain)/Loss due to :
   Changes in trend assumptions                          0.0       (23,958.5)        (14,673.9)               0.0                 0.0
   Changes in assumptions other
                                                   77,190.2           6,063.8         25,794.6               11.0                 0.0
   than trend
 Subtotal: Losses (Gains) from
                                                   77,190.2        (17,894.7)         11,120.7               11.0                 0.0
 Actuarial Assumption Changes
 Total Expenses                             $    169,359.2     $      3,815.9    $     8,584.2    $         23.8      $         24.1
 Less Benefit Outlays                             52,363.7           11,584,0          9,470.6             115.7               412.3
 Total Changes in Actuarial
                                            $ 116,995.5        $ (7,768.1)       $      (886.4)   $        (91.9)     $      (388.2)
 Liability
 Ending Actuarial Liability                 $ 1,477,918.0       $ 298,216.9      $ 532,781.3      $        678.2      $     1,385.4


The Department complies with SFFAS No. 33, “Pensions, Other Retirement Benefits, and
Other Postemployment Benefits: Reporting the Gains and Losses from Changes in
Assumptions and Selecting Discount Rates and Valuation Dates.” The standard requires the
separate presentation of gains and losses from changes in long-term assumptions used to
estimate liabilities associated with pensions, other retirement and postemployment benefits.
The SFFAS No. 33 also provides a standard for selecting the discount rate and valuation
date used in estimating these liabilities.

Military Retirement Pensions
The Military Retirement Fund is a defined benefit plan authorized by Public Law (PL) 98-94
to provide funds used to pay annuities and pensions to retired military personnel and their
survivors. The Department of Defense (DoD) Board of Actuaries approves the long-term
economic assumptions for inflation, salary, and interest. The actuaries calculate the
actuarial liabilities annually using economic assumptions and actual experience
(e.g., mortality and retirement rates). Due to reporting deadlines, the current year actuarial


                                                                                                       Financial Information
                                                               114
Department of Defense Agency Financial Report for FY 2012


present value of projected plan benefits rolls forward from the prior year’s valuation results.
The actuaries used the following assumptions to calculate the FY 2012 roll-forward amount:

 Military Retirement Pensions                     Inflation                     Salary                 Interest
 Fiscal Year 2012                               3.6% (actual)                1.6% (actual)              4.8%
 Fiscal Year 2013                             1.6% (estimated)             1.7% (estimated)             4.6%
 Long Term                                         2.6%                         3.0%                    4.6%
 Actuarial Cost Method Used: Aggregate Entry-Age Normal Method
 Market Value of Investments in Market-Based and Marketable Securities: $540.2 billion
 Assumed Interest Rate: 4.8 percent


Historically, the initial unfunded liability of the program was amortized over a 50-year
period. Effective FY 2008, the initial unfunded liability is amortized over a 42-year period to
ensure the annual payments cover the interest on the unfunded actuarial liability, with the
last payment expected October 1, 2025. All subsequent gains and losses experienced are
amortized over a 30-year period.

MILITARY RETIREMENT HEALTH BENEFITS (MRHB)
The MRHB are post-retirement benefits the Department provides to non-Medicare-eligible
military retirees and other eligible beneficiaries through private sector health care providers
and the Department’s medical treatment facilities. The actuaries calculate the actuarial
liabilities annually using assumptions and actual experience. For the FY 2012 actuarial
liability calculation, the actuaries used the following assumptions:

                                                                                         FY 2011 –    Ultimate Rate
 MHRB Medical Trend
                                                                                          FY 2012        FY 2036
 Medicare Inpatient (Direct Care)                                                           1.60%           5.35%
 Medicare Outpatient (Direct Care)                                                          2.26%           5.35%
 Medicare Prescriptions (Direct Care)                                                       0.00%           5.35%
 Non-Medicare Inpatient (Direct Care)                                                       2.00%           5.35%
 Non-Medicare Outpatient (Direct Care)                                                      5.00%           5.35%
 Non-Medicare Prescriptions (Direct Care)                                                   1.70%           5.35%
 Non-Medicare Inpatient (Purchased Care)                                                    4.57%           5.35%
 Non-Medicare Outpatient (Purchased Care)                                                   5.34%           5.35%
 Non-Medicare Prescriptions (Purchased Care)                                                5.25%           5.35%
 U.S. Family Health Plan (USFHP) (Purchased Care)                                           4.75%           5.35%
 Actuarial Cost Method Used: Aggregate Entry-Age Normal Method
 Assumed Interest Rate: 4.6 percent



Medicare-Eligible Retiree Health Care Fund (MERHCF) Benefits
In accordance with PL 106-398, MERHCF accumulates funds to finance the health care
program liabilities of Medicare-eligible retirees for all the Uniformed Services and specific
Medicare-eligible beneficiaries. The DoD Board of Actuaries approves the long-term
assumptions for medical trends and interest. The actuaries calculate the actuarial liabilities
annually using actual experience (e.g., mortality and retirement rates, direct care costs,
purchased care). Due to reporting deadlines, the current year actuarial present value of
projected plan benefits rolls forward from the prior year’s results. The actuaries used the


                                                                                                Financial Information
                                                             115
Department of Defense Agency Financial Report for FY 2012


following assumptions to calculate the FY 2012 roll-forward amount:

                                                                                         FY 2011 –      Ultimate Rate
 MERHCF Benefits – Medical Trend
                                                                                          FY 2012          FY 2036
 Medicare Inpatient (Direct Care)                                                           1.60%            5.35%
 Medicare Inpatient (Purchased Care)                                                        3.60%            5.35%
 Medicare Outpatient (Direct Care)                                                          2.26%            5.35%
 Medicare Outpatient (Purchased Care)                                                       3.26%            5.35%
 Medicare Prescriptions (Direct Care)                                                       0.00%            5.35%
 Medicare Prescriptions (Purchased Care)                                                    4.44%            5.35%
 Medicare USFHP (Purchased Care)                                                            3.83%            5.35%
 Actuarial Cost Method Used: Aggregate Entry-Age Normal Method
 Market Value of Investments in Market-Based and Marketable Securities: $264.8 billion
 Assumed Interest Rate: 4.6 percent


The MERHCF liability includes Medicare liabilities for all Uniformed Services. The
$532.8 billion liability includes $520.7 billion for the Department, $10.8 billion for the
Coast Guard, $1.2 billion for the Public Health Service and $78.5 million for National Oceanic
and Atmospheric Administration (NOAA). The FY 2012 contributions from each of the
Uniformed Services were $10.8 billion from the Department, $261.9 million from the
Coast Guard, $36.0 million from the Public Health Service, and $1.8 million from NOAA.

Federal Employees Compensation Act (FECA)
The Department of Labor (DOL) annually determines the liability for future workers’
compensation benefits, which includes the expected liability for death, disability, medical,
and miscellaneous costs for approved compensation cases, plus a component for incurred-
but-not-reported claims. The liability is determined using historical benefit payment patterns
related to a specific incurred period to predict the final payment related to that period.
Consistent with past practice, these projected annual benefit payments have been
discounted to present value using the Office of Management and Budget’s economic
assumptions for 10-year U.S. Treasury notes and bonds. A 2.3 percent interest rate was
assumed for year one and 3.1 percent for year two and thereafter.

The DOL calculates this liability using wage inflation factors (cost of living adjustments or
COLAs) and medical inflation factors (consumer price index medical or CPIM). The actual
rates for these factors for charge back year (CBY) 2012 were also used to adjust the
methodology’s historical payments to current year constant dollars. The compensation
COLAs and CPIMs used in the projections for various charge back years were as follows:



                                Federal Employees – Compensation Act (FECA)
                  CBY                              COLA                                              CPIM
                  2013                                      2.83%                                    3.65%
                  2014                                      2.03%                                    3.66%
                  2015                                      1.93%                                    3.72%
                  2016                                      2.00%                                    3.73%
                 2017+                                      2.03%                                    3.80%




                                                                                                Financial Information
                                                             116
Department of Defense Agency Financial Report for FY 2012


The model’s resulting projections were analyzed by DOL to ensure the estimates were
reliable. The analysis was based on four tests: (1) a sensitivity analysis of the model of
economic assumptions, (2) a comparison of the percentage change in the liability amount to
the percentage change in the actual incremental payments, (3) a comparison of the
incremental paid losses per case (a measure of case-severity) in CBY 2012 to the average
pattern observed during the prior three charge back years, and (4) a comparison of the
estimated liability per case in the 2012 projection to the average pattern for the projections
for the most recent three years.

Voluntary Separation Incentive (VSI) Program
The VSI Program was established by PL 102-190 to reduce the number of military personnel
on active duty. The DoD Board of Actuaries approved the assumed annual interest rate of
3.4 percent used to calculate the actuarial liability. Since VSI is no longer offered, the
actuarial liability calculated annually is expected to continue to decrease with benefit outlays
and increase with interest cost.

Market Value of Investments in Market-based and Marketable Securities: $364.4 million

DoD Education Benefits Fund (EBF)
The EBF was established by PL 98-525 to recruit and retain military members and aid in the
readjustment of military members to civilian life. The actuaries calculate the actuarial
liability annually based on the assumed interest rate of 4.0 percent that was approved by
the DoD Board of Actuaries.

Market Value of Investments in Market-based and Marketable Securities: $2.3 billion

Other Federal Employment Benefits
Other Federal Employment Benefits primarily consists of accrued pensions and annuities,
and an estimated liability for incurred-but-not-reported medical claims not processed prior
to fiscal year end.




                                                                          Financial Information
                                              117
Department of Defense Agency Financial Report for FY 2012


NOTE 18. GENERAL DISCLOSURES RELATED TO THE STATEMENT OF NET
COST
Costs and Exchange Revenue                                                           Dollars in Millions
                                                                                         Restated
                                                                       2012
As of September 30                                                                         2011
Military Retirement Benefits
1. Gross Cost
  A. Intragovernmental Cost                                        $          6.1    $            0.0
  B. Non-Federal Cost                                              $     85,564.3    $      107,519.8
  C. Total Cost                                                    $     85,570.4    $      107,519.8
2. Earned Revenue
  A. Intragovernmental Revenue                                     $   (19,073.3)    $      (27,456.7)
  B. Non-Federal Revenue                                           $          0.0    $             0.0
  C. Total Revenue                                                 $   (19,073.3)    $      (27,456.7)
3. Losses/(Gains) from Actuarial Assumption Changes for Military
                                                                   $     88,311.0    $        12,646.1
Retirement Benefits
Total Net Cost                                                     $    154,808.1    $        92,709.2
Civil Works
1. Gross Cost
  A. Intragovernmental Cost                                        $      1,435.6    $         1,466.4
  B. Non-Federal Cost                                              $      9,531.6    $        12,063.7
  C. Total Cost                                                    $     10,967.2    $        13,530.1
2. Earned Revenue
  A. Intragovernmental Revenue                                     $    (1,393.5)    $        (1,623.6)
  B. Non-Federal Revenue                                           $      (774.1)    $          (694.6)
  C. Total Revenue                                                 $    (2,167.6)    $        (2,318.2)
3. Losses/(Gains) from Actuarial Assumption Changes for Military
                                                                   $           0.0   $               0.0
Retirement Benefits
Total Net Cost                                                     $      8.799.6    $        11,211.9
Military Personnel
1. Gross Cost
  A. Intragovernmental Cost                                        $     38,673.2    $       35,115.5
  B. Non-Federal Cost                                              $    111,657.3    $      118,765.9
  C. Total Cost                                                    $    150,330.5    $      153,881.4
2. Earned Revenue
  A. Intragovernmental Revenue                                     $    (1,119.5)    $          (804.3)
  B. Non-Federal Revenue                                           $      (339.1)    $           (77.3)
  C. Total Revenue                                                 $    (1,458.6)    $          (881.6)
3. Losses/(Gains) from Actuarial Assumption Changes for Military
                                                                   $           0.0   $               0.0
Retirement Benefits
Total Net Cost                                                     $    148,871.9    $      152,999.8
Operations, Readiness & Support
1. Gross Cost
  A. Intragovernmental Cost                                        $   (56,303.5)    $      (55,748.9)
  B. Non-Federal Cost                                              $   352,007.6     $      370.308.9
  C. Total Cost                                                    $   295,704.1     $      314,560.0
2. Earned Revenue
  A. Intragovernmental Revenue                                     $     13,726.5    $        11,470.3


                                                                              Financial Information
                                                     118
Department of Defense Agency Financial Report for FY 2012


Costs and Exchange Revenue                                                           Dollars in Millions
                                                                                         Restated
                                                                       2012
As of September 30                                                                         2011
  B. Non-Federal Revenue                                           $   (48,357.2)    $      (73,595.3)
  C. Total Revenue                                                 $   (34,630.7)    $      (62,125.0)
3. Losses/(Gains) from Actuarial Assumption Changes for Military
                                                                   $   (17,883.7)    $      (25,015.9)
Retirement Benefits
Total Net Cost                                                     $    243,189.7    $      227,419.1
Procurement
1. Gross Cost
  A. Intragovernmental Cost                                        $     30,773.4    $       29,956.9
  B. Non-Federal Cost                                              $     99,805.4    $       98,615.9
  C. Total Cost                                                    $    130,578.8    $      128,572.8
2. Earned Revenue
  A. Intragovernmental Revenue                                     $    (3,192.3)    $        (3,150.6)
  B. Non-Federal Revenue                                           $      (305.7)    $        (3,015.0)
  C. Total Revenue                                                 $    (3,498.0)    $        (6,165.6)
3. Losses/(Gains) from Actuarial Assumption Changes for Military
                                                                   $           0.0   $               0.0
Retirement Benefits
Total Net Cost                                                     $    127,080.8    $      122,407.2
Research, Development, Test & Evaluation
1. Gross Cost
  A. Intragovernmental Cost                                        $     22,256.0    $        22,993.7
  B. Non-Federal Cost                                              $     54,516.6    $        56,237.2
  C. Total Cost                                                    $     76,772.6    $        79,230.9
2. Earned Revenue
  A. Intragovernmental Revenue                                     $    (7,676.9)    $        (7,916.6)
  B. Non-Federal Revenue                                           $    (1,590.3)    $          (251.7)
  C. Total Revenue                                                 $    (9,267.2)    $        (8,168.3)
3. Losses/(Gains) from Actuarial Assumption Changes for Military
                                                                   $           0.0   $               0.0
Retirement Benefits
Total Net Cost                                                     $     67,505.4    $        71,062.6
Family Housing & Military Construction
1. Gross Cost
  A. Intragovernmental Cost                                        $      2,019.9    $         1,734.3
  B. Non-Federal Cost                                              $     29,787.6    $        12,605.9
  C. Total Cost                                                    $     31,807.5    $        14,340.2
2. Earned Revenue
  A. Intragovernmental Revenue                                     $    (8,579.0)    $        (7,547.4)
  B. Non-Federal Revenue                                           $    (4,630.4)    $          (377.1)
  C. Total Revenue                                                 $   (13,209.4)    $        (7,924.5)
3. Losses/(Gains) from Actuarial Assumption Changes for Military
                                                                   $           0.0   $               0.0
Retirement Benefits
Total Net Cost                                                     $     18,598.1    $         6,415.7
Consolidated
1. Gross Cost
  A. Intragovernmental Cost                                        $     38,860.7    $       35,517.9
  B. Non-Federal Cost                                              $    742,870.4    $      776,117.3
  C. Total Cost                                                    $    781,731.1    $      811,635.2


                                                                              Financial Information
                                                     119
Department of Defense Agency Financial Report for FY 2012


 Costs and Exchange Revenue                                                              Dollars in Millions
                                                                                             Restated
                                                                           2012
 As of September 30                                                                            2011
 2. Earned Revenue
   A. Intragovernmental Revenue                                        $    (27,308.0)   $      (37,028.9)
   B. Non-Federal Revenue                                              $    (55,996.8)   $      (78,011.0)
   C. Total Revenue                                                    $    (83,304.8)   $     (115,039.9)
 3. Losses/(Gains) from Actuarial Assumption Changes for Military
                                                                       $     70,427.3    $      (12,369.8)
 Retirement Benefits
 4. Costs Not Assigned to Programs                                     $          0.0    $            0.0
 5. (Less: Earned Revenues) Not Attributed to Programs                 $          0.0    $            0.0
 Total Net Cost                                                        $    768,853.6    $      684,225.5



Abnormal Balances
Operations, Readiness & Support Intragovernmental Gross Cost on the SNC has an
abnormal balance of $56.3 billion. The current business practice is to include elimination
reporting in this program group.

Operations, Readiness & Support Intragovernmental Earned Revenue on the SNC has an
abnormal balance of $13.7 billion. The current business practice is to include elimination
reporting in this program group.

Earned Revenue includes an abnormal balance of $93.7 million in USSGL account 5909
(Contra Revenue for Other Revenue). During FY 2012, the prior year deferred revenue
balance was reversed and the current year recorded. The prior year deferred revenue was
greater than the current year causing the abnormal balance.

Restatements
The Department identified an understatement                of General Property, Plant and Equipment.
This correction increased the FY 2011 net                  cost by $72.2 million. This prior period
adjustment is reflected in the schedule above              as non-Federal Gross Cost in Procurement;
Research, Development, Test and Evaluation.                See Note 26, Restatements, for additional
information.

Other Disclosures
The SNC represents the net cost of programs and organizations of the Department that are
supported by appropriations or other means. The intent of the SNC is to provide gross and
net cost information related to the amount of output or outcome for a given program or
organization administered by a responsible reporting entity. The Department’s current
processes and systems capture costs based on appropriation groups as presented in the
schedule above. The lower level costs for major programs are not presented as required by
the Government Performance and Results Act. The Department is in the process of
reviewing available data and developing a cost reporting methodology as required by the
Statement of Federal Financial Accounting Standards (SFFAS) No. 4, “Managerial Cost
Accounting Concepts and Standards for the Federal Government”, as amended by
SFFAS No. 30, “Inter-Entity Cost Implementation”.


                                                                                  Financial Information
                                                      120
Department of Defense Agency Financial Report for FY 2012


Intragovernmental costs and revenue represent transactions made between two reporting
entities within the Federal Government. Public costs and revenues are exchange
transactions made between the reporting entity and a non-Federal entity.

The Department’s systems do not track intragovernmental transactions by customer at the
transaction level. Buyer side expenses are adjusted to agree with internal seller side
revenues. Expenses are generally adjusted by reclassifying amounts between Federal and
non-Federal expenses. Intradepartmental revenues and expenses are then eliminated.
The SNC presents information based on budgetary obligation, disbursement, and collection
transactions, as well as data from nonfinancial feeder systems. Amounts are adjusted for
accruals, such as payroll expenses, accounts payable, and environmental liabilities. The
General Fund data is primarily derived from budgetary transactions (obligations,
disbursements, and collections), data from nonfinancial feeder systems, and accruals made
for major items. While Working Capital Funds primarily record transactions on an accrual
basis, the systems do not always capture actual costs in a timely manner.

The Department’s accounting systems generally do not capture information relative to
heritage assets separately and distinctly from normal operations.

The Department implemented SFFAS No. 33, “Pensions, Other Retirement Benefits, and
Other Postemployment Benefits: Reporting the Gains and Losses from Changes in
Assumptions and Selecting Discount Rates and Valuation Dates”. The standard requires the
separate presentation of gains and losses from changes in long term assumptions used to
estimate liabilities associated with pensions, other retirement benefits, and other
postemployment benefits on the SNC. The SFFAS No. 33 also provides a standard for
selecting the discount rate and valuation date used in estimating these liabilities.

During FY 2011, based on SFFAS No. 33, the Department included all costs associated with
the change in the actuarial liabilities for military retirement in “Losses/(Gains) from
Actuarial Assumption Changes”. During FY 2012, the Department of Treasury and the
Government Accountability Office provided additional guidance which specified only trend
and other assumption changes should be recorded as “Losses/(Gains) from Actuarial
Assumption Changes”. To ensure comparability, the FY 2011 column on the Statement of
Net Cost has been updated to reflect the additional guidance. As a result, there may be
inconsistencies between the FY 2011 column and the FY 2011 published statements.

NOTE 19. DISCLOSURES RELATED TO THE STATEMENT OF CHANGES IN NET
POSITION
Abnormal Balances
Net Cost of Operations includes an abnormal balance of $93.7 million in USSGL
account 5909 (Contra Revenue for Other Revenue). During FY 2012, the prior year deferred
revenue balance was reversed in the current year and the current year deferred revenue
was recorded. The prior year deferred revenue was more than the current year deferred
revenue causing this account balance to be abnormal.
Nonexchange Revenue includes an abnormal balance of $26.4 million in USSGL
account 5320 (Penalties and Fines Revenue). During 4th Quarter, FY 2012, penalties


                                                                    Financial Information
                                          121
Department of Defense Agency Financial Report for FY 2012


previously recorded for the Cerrillos Dam long term water storage contract at the
Jacksonville District were reversed as the cost share agreement did not allow for penalties.

Other Financing Sources, Other – Earmarked Funds on the Statement of Changes in Net
Position include an abnormal balance of $21.8 million in USSGL account 5791 (Adjustment
to Financing Sources - Downward Reestimate or Negative Subsidy). This account is offset by
a corresponding entry in the non-earmarked direct loan program account.

Restatements
The Department corrected a $1.0 billion understatement of General Property, Plant and
Equipment to align the accounting records with the property accountability system and a
$955.1 million overstatement of Other Assets (With the Public).      Refer to Note 26,
Restatements, for further information.

Other Disclosures
Other Financing Sources, Other consists primarily of nonexchange gains and losses
necessary to reconcile the proprietary and budgetary amounts, as well as gains and losses
on disposition of assets. Due to financial system limitations, the Department adjusts for
these unreconciled differences.

Earmarked Cumulative Results of Operations ending balance on the Statement of Changes
in Net Position (SCNP) does not agree with the Earmarked Cumulative Results reported on
the Balance Sheet because the cumulative results on the Balance Sheet are presented net
of eliminations. In the SCNP, all offsetting balances (e.g., transfers-in and transfers-out,
revenues and expenses) for intraentity activity between Earmarked Funds and All Other
Funds are reported on the same lines. The Eliminations column contains all appropriate
elimination entries, which net to zero within each respective line, except for intraentity
imputed financing costs.

Appropriations Received on the SCNP does not agree with Appropriations on the Statement
of Budgetary Resources (SBR) by $55.4 billion. This difference represents $125.3 billion in
trust and special fund receipts reported as exchange revenue on the Statement of Net Cost
and included in appropriations on the SBR, offset by $60.5 billion in receipts and
appropriations temporarily precluded from obligation, $8.5 billion in permanent reductions,
and $0.9 billion in receipts and appropriations temporarily precluded from obligations and
current year authority transfers. In order to preserve visibility with the President’s Budget,
these appropriations are effectively reported twice on the SBR. They are reported once by
the Military Departments and Defense Agencies as appropriated and once by the individual
trust funds as receipts. Refer to Note 20, Disclosures Related to the SBR, for further
information.




                                                                        Financial Information
                                             122
Department of Defense Agency Financial Report for FY 2012


NOTE 20. DISCLOSURES RELATED TO THE STATEMENT OF BUDGETARY
RESOURCES
 Disclosures Related to the Statement of Budgetary Resources                                 Dollars in Millions
                                                                                                 Restated
                                                                                2012
 As of September 30                                                                                2011
 Net Amount of Budgetary Resources Obligated for Undelivered Orders at
                                                                           $     486,886.1   $      477,099.3
 the End of the Period.

Restatements
The Department corrected a $955.1 million overstatement impacting the Net Amount of
Budgetary Resources Obligated for Undelivered Orders at the End of the Period. Refer to
Note 26, Restatements, for further information.

Reconciliation Differences
Appropriations on the SBR exceed Appropriations Received on the Statement of Changes in
Net Position by $55.4 billion. This difference represents $125.3 billion in trust and special
fund receipts reported as exchange revenue on the Statement of Net Cost and included in
appropriations on the SBR, offset by $60.5 billion in receipts and appropriations temporarily
precluded from obligation, $8.5 billion in permanent reductions, and $0.9 billion in receipts
unavailable for obligation upon collection and current year authority transfers. In
accordance with OMB guidance, $109.9 billion of General Fund appropriations received by
the Department are also recognized on the SBR as appropriations received for trust and
special funds. The difference is primarily due to duplicate reporting in the SBR of the Military
Services’ contributions and U.S. Treasury’s payments to the Military Retirement Trust Fund
and the Department of Defense Medicare-Eligible Retiree Health Care Fund.

The SBR FY 2011 column includes $108.5 billion more in budget authority than reported in
the 2011 actual column of the President’s FY 2013 Budget. The difference is primarily due to
duplicate reporting in the SBR of the Military Services’ contributions and U.S. Treasury’s
payments to the Military Retirement Trust Fund and the Department of Defense Medicare-
Eligible Retiree Health Care Fund.

The SBR FY 2011 column includes $66.3 million less in obligations than reported in the 2011
actual column of the President's FY 2013 Budget. The difference is primarily due to the
timing of the recognition of obligations.
The SBR FY 2011 column includes $83.2 billion less in net outlays than reported in the 2011
actual column of the President’s FY 2013 Budget. The SBR reduces net outlays by the
distributed offsetting receipts. The President’s Budget does not reduce the Department’s
outlays by the distributed offsetting receipts.

Permanent Indefinite Appropriations
The Department         of   Defense      (DoD)     received    the       following   permanent      indefinite
appropriations:
Department of the Army General Gift Fund (10 USC 2601(C)(1))

Department of the Navy General Gift Fund (10 USC 2601(C)(2))

                                                                                       Financial Information
                                                    123
Department of Defense Agency Financial Report for FY 2012


Department of the Air Force General Gift Fund (10 USC 2601 (C)(3))
Department of Defense General Gift Fund (10 USC 2601)

Disposal of Department of Defense Real Property (40 USC 485(h)(2)(A)(B))
Lease of Department of Defense Real Property (40 USC 485(h)(2)(A)(B))

Foreign National Employees Separation Pay Account, Defense (10 USC 1581)
United States Naval Academy Gift and Museum Fund (10 USC 6973-4)

Ship Stores Profits, Navy (10 USC 7220, 31 USC 1321)
Burdensharing Contributions (10 USC 2350j)

Forest Program (10 USC 2665)
Medicare Eligible Retiree Health Care Fund (10 USC 1111)

Military Retirement Fund (10 USC 1461)

Education Benefits Fund (10 USC 2006)

Host Nation Support for U.S. Relocation Activities (10 USC 2350k)

Hydraulic Mining Debris Reservoir (33 USC 683)

Maintenance and Operation of Dams and Other Improvements of Navigable Waters
(16 USC 810(a))

Payments to States (33 USC 701c-3)

Wildlife Conservation (16 USC 670-670(f))
Ainsworth Bequest (31 USC 1321)

DoD Family Housing Improvement Fund (10 USC 2883 (a))

DoD Military Unaccompanied Housing Improvement Fund (10 USC 2883 (a))

Voluntary Separation Incentive Fund (10 USC 1175(h))

Rivers & Harbors Contributed Funds (33 USC 560, 701h)

Concurrent Receipt Accrual Payments to the Military Retirement Fund 10 USC 1466(b)(1)

Rocky Mountain Arsenal, Restoration (100 Statute, 4003 SEC 1367)

DoD Family Housing Improvement Fund, Direct Loan, Financing Account (2 USC 661d)
DoD Family Housing Improvement Fund, Guaranteed Loan, Financing Account (2 USC 661d)

Homeowners Assistance Fund (10 USC 4551-4555; 42 USC 3374(d), Title United States
Code; Public Law 111-5)

Payments to Military Retirement Fund, Defense (10 USC, 1466)
Payment to Department       of   Defense    Medicare-Eligible   Retiree   Health   Care   Fund
(10 USC 1116(a))




                                                                          Financial Information
                                            124
Department of Defense Agency Financial Report for FY 2012


ARMS Initiative, Guaranteed            Loan    Financing   Account,   Army     (10   USC     2501,
10 USC 4551-4555)

Medicare-Eligible Retiree Health Fund Contribution, Navy (10 USC 1116)
Medicare-Eligible Retiree Health Fund Contribution, Marine Corps (10 USC 1116)

Medicare-Eligible Retiree Health Fund Contribution, Reserve Personnel, Navy (10 USC 1116)
Medicare-Eligible Retiree Health Fund Contribution, Reserve Personnel, Marine Corps
(10 USC 1116)

Medicare-Eligible Retiree Health Fund Contribution, Army (10 USC 1116)

Medicare-Eligible Retiree Health Fund Contribution, Reserve Personnel, Army (10 USC 1116)

Medicare-Eligible Retiree Health Fund Contribution, National Guard Personnel, Army
(10 USC 1116)

Medicare-Eligible Retiree Health Fund Contribution, Air Force (10 USC 1116)

Medicare-Eligible   Retiree   Health    Fund    Contribution,   Reserve   Personnel,   Air   Force
(10 USC 1116)

Medicare-Eligible Retiree Health Fund Contribution, National Guard Personnel, Air Force
(10 USC 1116)

Department of Defense Vietnam War Commemoration Fund, Defense (P.L. 110-181,
122 Stat. 141 (Sec. 598))

The above permanent indefinite appropriations cover a wide variety of purposes to help the
Department accomplish its missions. These purposes include: (1) military retirees’ health
care benefits, retirement and survivor pay, and education benefits for veterans; (2) wildlife
habitat restoration and water resources maintenance; (3) relocation of armed forces within
a host nation; (4) separation payments for foreign nationals; and (5) upkeep of libraries
and museums.

Apportionment Categories for Obligations incurred
The Department reported the following amounts of direct obligations: (1) $503.4 billion in
category A; (2) $222.3 billion in category B; and (3) $130.7 billion in exempt from
apportionment. The Department reported reimbursable obligations of: (1) $27.1 billion in
category A and (2) $175.5 billion in category B. Category A relates to appropriations for a
specific period of time (e.g., Military Personnel appropriation), and category B relates to
appropriations for a specific project (e.g., Military Construction appropriation).

Legal Arrangements Affecting the Use of Unobligated Balances
A portion of the Department’s unobligated balances represent trust fund receipts collected in
the current fiscal year that exceed the amount needed to pay benefits or other valid obligations.
These receipts are temporarily precluded from obligation by law due to a benefit formula or
other limitation. The receipts, however, are assets of the funds and are available for obligation
as needed in the future. The Department operates within the constraints of fiscal law and has
no additional legal arrangements affecting the use of unobligated balances.


                                                                             Financial Information
                                                125
Department of Defense Agency Financial Report for FY 2012


Other Disclosures
The SBR includes intraentity transactions because the statements are presented as
combined.

The Department utilizes borrowing authority for the Military Housing Privatization Initiative
and the Armament Retooling and Manufacturing Support Initiative. Borrowing authority is
used in accordance with OMB Circular A-129, “Managing Federal Credit Programs.”
The Department received additional funding of $115.1 billion to cover obligations incurred
above baseline operations in support of contingency operations.

NOTE 21. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET
 Reconciliation of Net Cost of Operations to Budget                                            Dollars in Millions
                                                                                                   Restated
                                                                                2012
 As of September 30                                                                                  2011
 Resources Used to Finance Activities
 Budgetary Resources Obligated:
  Obligations incurred                                                      $   1,059,305.0    $    1,069,545.0
  Less: Spending authority from offsetting collections and recoveries (-)       (258,964.9)         (252,444.2)
  Obligations net of offsetting collections and recoveries                  $     800,340.1    $      817,100.8
  Less: Offsetting receipts (-)                                                   (79,238.4)          (83,198.6)
  Net obligations                                                           $     721,101.7    $      733,902.2
 Other Resources:
   Donations and forfeitures of property                                      $         37.5 $          7.6
   Transfers in/out without reimbursement (+/-)                                         66.1        (147.4)
   Imputed financing from costs absorbed by others                                   5,048.1        5,623.9
   Other (+/-)                                                                   (10,465.7)         1,812.3
   Net other resources used to finance activities                             $    (5,314.0) $      7,296.4
 Total resources used to finance activities                                   $   715,787.7 $    741,198.6
 Resources Used to Finance Items not Part of the Net Cost of Operations
 Change in budgetary resources obligated for goods, services and
 benefits ordered but not yet provided:
   Undelivered Orders (-)                                                     $  (16,379.3) $     (9,125.9)
   Unfilled Customer Orders                                                          3,715.0        3,691.4
 Resources that fund expenses recognized in prior Periods (-)                    (19,822.5)     (74,469.2)
 Budgetary offsetting collections and receipts that do not affect Net Cost of
                                                                                       966,1        2,507.9
 Operations
 Resources that finance the acquisition of assets (-)                         $ (105,865.0) $  (128,667.3)
 Other resources or adjustments to net obligated resources that do not
 affect Net Cost of Operations:
   Less: Trust or Special Fund Receipts Related to exchange in the
                                                                              $          0.0 $          0.0
   Entity’s Budget (-)
   Other (+/-)                                                                     10,323.4       (1,672.7)
 Total resources used to finance items not part of the Net Cost of
                                                                              $ (127,062.3) $  (207,735.8)
 Operations
 Total resources used to finance the Net Cost of Operations                   $   588,725.4 $    533,462.8
 Components of the Net Cost of Operations that will not Require or Generate Resources in the Current
 Period
 Components Requiring or Generating Resources in Future Period:



                                                                                       Financial Information
                                                        126
Department of Defense Agency Financial Report for FY 2012


 Reconciliation of Net Cost of Operations to Budget                                      Dollars in Millions
                                                                                             Restated
                                                                           2012
 As of September 30                                                                            2011
  Increase in annual leave liability                                   $        253.6    $          363.7
  Increase in environmental and disposal liability                              657.2             3,667.8
  Upward/Downward reestimates of credit subsidy expense (+/-)                   (12.0)                8.3
  Increase in exchange revenue receivable from the public (-)                     84.6            (552.3)
  Other (+/-)                                                               124,388.8           112,105.1
 Total components of Net Cost of Operations that will Require or
                                                                       $    125,372.2    $      115,592.6
 Generate Resources in future periods
 Components not Requiring or Generating Resources:
 Depreciation and amortization                                         $     47,978.8    $        55,937.5
 Revaluation of assets or liabilities (+/-)                                   2,693.3             (8,286.9)
 Other (+/-)
  Trust Fund Exchange Revenue                                              (50,977.7)           (55,336.7)
  Cost of Goods Sold                                                         78,140.6             72,938.9
  Operating Materiel and Supplies Used                                       27,873.0             33,442.2
  Other                                                                    (50,952.0)           (63,524.9)
 Total Components of Net Cost of Operations that will not Require or
                                                                       $     54,756.0    $        35,170.1
 Generate Resources
 Total components of Net Cost of Operations that will not Require or
                                                                       $    180,128.2    $      150,762.7
 Generate Resources in the current period
 Net Cost of Operations                                                $    768,853.6    $      684,225.5



Abnormal Balance
Budgetary Resources Obligated, Other and Other Resources or Adjustments to Net
Obligated Resources that do not Affect Net Cost of Operations, Other include an abnormal
balance of $21.8 million in USSGL account 5791 (Adjustment to Financing Sources -
Downward Reestimate or Negative Subsidy). This account is offset by a corresponding entry
in the non-earmarked direct loan program account.

Restatements
The Department corrected a $955.1 million understatement of undelivered orders and
Resources that finance the acquisition of assets, and a $72.2 million understatement of
Depreciation and amortization to align the accounting records to the property accountability
system. These corrections resulted in a $72.2 million increase in Net Cost of Operations.
Refer to Note 26, Restatements, for further information.

Other Disclosures
Due to the Department’s financial system limitations, budgetary data does not agree with
proprietary expenses and capitalized assets. The difference between budgetary and
proprietary data is a previously identified deficiency. The following adjustments (absolute
value) were made to balance the Reconciliation of Net Cost of Operations to the Statement
of Net Cost:




                                                                                  Financial Information
                                                   127
Department of Defense Agency Financial Report for FY 2012


                                                                              Dollars in Millions
    Resources that Finance the Acquisition of Assets                          $         9,385.7
    Other Components not Requiring or Generating Resources                    $             2.8
    Total Amount                                                              $         9,388.5


The following Reconciliation of Net Cost of Operations to Budget lines are presented as
combined instead of consolidated due to intraagency budgetary transactions not being
eliminated:
•     Obligations Incurred

•     Less: Spending Authority from Offsetting Collections and Recoveries
•     Obligations Net of Offsetting Collections and Recoveries

•     Less: Offsetting Receipts

•     Net Obligations

•     Undelivered Orders

•     Unfilled Customer Orders

Other Resources, Other primarily consists of nonexchange gains and losses necessary to
reconcile the proprietary and budgetary amounts, as well as gains and losses on disposition
of assets.

Other Resources or Adjustments to Net Obligated Resources that Do Not Affect Net Cost of
Operations, Other primarily consists of nonexchange gains and losses necessary to reconcile
the proprietary and budgetary amounts, financing sources transferred in and out without
reimbursement, and gains and losses from disposition of assets.
Components Requiring or Generating Resources in Future Period, Other consists primarily of
future funded expenses.

Components not Requiring or Generating Resources, Other primarily consists of cost
capitalization offsets and other expenses not requiring budgetary resources.

NOTE 22. DISCLOSURES RELATED TO INCIDENTAL CUSTODIAL
COLLECTIONS
The Department collected $6.3 million of incidental custodial revenues generated primarily
from forfeitures of unclaimed money and property. These funds are not available for use by
the Department. At the end of each fiscal year, the accounts are closed and the balances
are rendered to the U.S. Treasury.




                                                                        Financial Information
                                                      128
Department of Defense Agency Financial Report for FY 2012


NOTE 23. EARMARKED FUNDS
Earmarked Funds                                                                                               Dollars in Millions
                                                                                 2012
                                                           Medicare
                                            Military                              Other
                                                            Eligible
                                           Retirement                           Earmarked      Eliminations           Total
                                                         Retiree Health
                                             Fund                                 Funds
As of September 30                                        Care Fund
Balance Sheet
Assets
  Fund balance with Treasury           $          23.0   $         162.3    $       2,973.7    $           0.0   $      3,159.0
  Investments                                427,867.4         203,341.5           10,329.9                0.0        641,538.8
  Accounts and Interest Receivable                67.0           1,004.3            1,619.0              (8.7)          2,681.6
  Other Assets                                     0.0               2.3            1,346.3                0.0          1,348.6
Total Assets                           $     427,957.4   $     204,510.4    $      16,268.9    $         (8.7)   $    648,728.0
Liabilities and Net Position
  Military Retirement Benefits and
                                       $ 1,481,969.9     $     533,392.4    $       2,063.7    $          0.0    $ 2,017,426.0
  Other Federal Employment Benefits
  Other Liabilities                                2.0           555.1              2,530.0          (150.6)             2,936.5
Total Liabilities                      $ 1,481,971.9     $ 533,947.5        $       4,593.7    $     (150.6)     $ 2,020,362.5
  Unexpended Appropriations            $           0.0   $         0.0      $         295.6    $         0.0     $         295.6
  Cumulative Results of Operations       (1,054,014.5)   $ (329,437.1)      $      11,379.6    $ (105,721.5)     $ (1,477,793.5)
Total Liabilities and Net Position     $ 427,957.4       $ 204,510.4        $      16,268.9    $ (105,872.1)     $ 542,864.6

Statement of Net Cost
  Program Costs                        $   169,471.1     $        7,304.5   $        1,572.8   $     (3,004.9)   $    175,343.5
  Less Earned Revenue                    (104,506.2)           (24,118.7)          (1,355.5)        109,791.0         (20,189.4)
  Net Program Costs                         64,964.9           (16,814.2)              217.3        106,786.1         155,154.1
Net Cost of Operations                 $    64,964.9     $     (16,814.2)   $          217.3   $    106,786.1    $    155,154.1

Statement of Changes in Net Position
  Net Position Beginning of the
                                     $ (989,049.6)       $ (346,251.3)      $       9,788.5    $          0.0    $ (1,325,512.4)
  Period
  Net Cost of Operations                    64,964.9        (16,814.2)                217.3        106,786.1           155,154.1
  Budgetary Financing Sources                    0.0               0.0              2,243.0            991.9             3,234.9
  Other Financing Sources                        0.0               0.0              (139.0)             72.7               (66.3)
  Change in Net Position             $ (64,964.9)        $    16,814.2      $       1,886.7    $ (105,721.5)     $ (151,985.5)
Net Position End of Period           $ (1,054,014.5)     $ (329,437.1)      $      11,675.2    $ (105,721.5)     $ (1,477,497.9)




                                                                                                   Financial Information
                                                         129
Department of Defense Agency Financial Report for FY 2012


Earmarked Funds                                                                                              Dollars in Millions
                                                                                2011
                                                          Medicare
                                           Military                              Other
                                                           Eligible
                                          Retirement                           Earmarked      Eliminations           Total
                                                        Retiree Health
                                            Fund                                 Funds
As of September 30                                       Care Fund
Balance Sheet
Assets
  Fund balance with Treasury          $         370.3   $         227.2    $       2,730.6    $          0.0    $      3,328.1
  Investments                               371,616.3         187,826.1            9,899.7               0.0         569,342.1
  Accounts and Interest Receivable              233.5             498.0            1,415.6           (201.5)           1,945.6
  Other Assets                                    0.0               0.0            1,398.9               0.0           1,398.9
Total Assets                          $     372,220.1   $     188,551.3    $      15,444.8    $      (201.5)    $    576,014.7
Liabilities and Net Position
  Military Retirement Benefits and
                                      $ 1,361,267.8     $     534,379.7    $       2,543.7    $          0.0    $ 1,898,191..2
  Other Federal Employment Benefits
  Other Liabilities                             1.9             422.9              3,112.6          (120.6)             3,416.8
Total Liabilities                     $ 1,361,269.7     $ 534,802.6        $       5,656.3    $     (120.6)     $ 1,901,608.0
  Unexpended Appropriations           $         0.0     $         0.0      $         134.6    $         0.0     $         134.6
  Cumulative Results of Operations      (989,049.6)       (346,251.3)              9,653.9      (104,626.8)       (1,430,273.8)
Total Liabilities and Net Position    $ 372,220.1       $ 188,551.3        $      15,444.8    $ (104,747.4)     $ 471,468.8

Statement of Net Cost
  Program Costs                       $   153,446.3     $     (30,507.5)   $        2,939.4   $     (2,863.1)   $    123,015.1
  Less Earned Revenue                   (105,322.4)           (30,253.8)          (1,327.8)        108,427.4         (28,476.6)
  Net Program Costs                        48,123.9           (60,761.3)            1,611.6        105,564.3           94,538.5
Net Cost of Operations                $    48,123.9     $     (60,761.3)   $        1,611.6   $    105,564.3    $      94,538.5

Statement of Changes in Net Position
  Net Position Beginning of the
                                     $ (940,925.7)      $ (407,012.6)      $       9,522.3    $          0.0    $ (1,338,416.0)
  Period
  Net Cost of Operations                  48,123.9         (60,761.3)              1,611.6        105,564.3            94,538.5
  Budgetary Financing Sources                  0.0                0.0              1,934.4            922.7             2,857.1
  Other Financing Sources                      0.0                0.0                (56.6)            14.8               (41.8)
Change in Net Position               $ (48,123.9)       $    60,761.3      $         266.2    $ (104,626.8)     $ (91,723.2)
Net Position End of Period           $ (989,049.6)      $ (346,251.3)      $       9,788.5    $ (104,626.8)     $ (1,430,139.2)




                                                                                                  Financial Information
                                                        130
Department of Defense Agency Financial Report for FY 2012


Abnormal Balances
Other Financing Sources on the Statement of Changes in Net Position include an abnormal
balance of $21.8 million in USSGL account 5791 (Adjustment to Financing Sources –
Downward Reestimate or Negative Subsidy). This account is offset by a corresponding entry
in the non-earmarked direct loan program account.

Cumulative Results of Operations/Net Cost of Operations include an abnormal balance of
$93.7 million in USSGL account 5909, Contra Revenue for Other Revenue. During FY 2012,
the prior year deferred revenue balance was reversed and the current year deferred
revenue recorded. The prior year deferred revenue was greater than the current year
causing the abnormal balance.

Other Disclosures
The SFFAS No. 27, “Identifying and Reporting Earmarked Funds,” requires the disclosure of
Earmarked Funds separate from All Other Funds on the SCNP and Balance Sheet. Funds
must meet three criteria to be classified as earmarked: (1) a statute committing use of
specifically-identified revenues for designated purposes, (2) explicit authority to retain the
revenues, and (3) a requirement to account and report on the revenues. The Department’s
earmarked funds are either special or trust funds and use both receipt and expenditure
accounts to report activity to the U.S. Treasury. There have been no changes in legislation
that significantly changed the purposes of the funds.

The SFFAS No. 27 also requires the presentation of gross amounts of Earmarked Funds
separate from All Other (nonearmarked) Funds. Cumulative Results of Operations ending
balances for Earmarked Funds on the SCNP do not agree with the Cumulative Results of
Operations for Earmarked Funds reported on the Balance Sheet because the Cumulative
Results of Operations on the Balance Sheet are presented net of eliminations, whereas the
SCNP presents gross Cumulative Results of Operations.
The Total column is shown as consolidated and relates only to Earmarked Funds. The
Eliminations column includes eliminations associated with Earmarked Funds and excludes
the offsetting eliminations from All Other Funds. This exclusion causes assets to not equal
liabilities and net position in the note. However, the amounts in the Total column equal the
amounts reported for Earmarked Funds on the Balance Sheet.

Military Retirement Fund (MRF), 10 United States Code (USC) 1461. The MRF
accumulates funds in order to finance, on an actuarially sound basis, the liabilities of the
Department’s military retirement and survivor benefit programs. Financing sources for the
MRF are interest earnings on Fund assets, monthly Department contributions, and annual
contributions from the U.S. Treasury. The monthly Department contributions are calculated
as a percentage of basic pay. The contribution from the U.S. Treasury represents the
amortization of the unfunded liability for service performed prior to October 1, 1984, plus
the amortization of actuarial gains and losses that have arisen since then. The U.S. Treasury
annual contribution also includes the normal cost amount for the concurrent receipt
provisions of the FY 2004 National Defense Authorization Act.
Medicare-Eligible Retiree Health Care Fund (MERHCF), 10 USC 1111. The MERHCF
accumulates funds to finance, on an actuarially sound basis, liabilities of the Department

                                                                        Financial Information
                                             131
Department of Defense Agency Financial Report for FY 2012


and the uniformed services health care programs for qualified Medicare-eligible
beneficiaries. Financing sources for MERHCF are provided primarily through an annual
actuarial liability payment from the U.S. Treasury, annual contributions from each
Uniformed Service (Army, Navy, Air Force, Marine Corps, U.S. Coast Guard, National
Oceanic and Atmospheric Administration, and U.S. Public Health Service) and interest
earned from the Fund’s investments.

Other Earmarked Funds
Special Recreation Use Fees, 16 USC 4061-6a note. The United States Army Corps of
Engineers (USACE) is granted the authority to charge and collect fair and equitable Special
Recreation Use Fees at campgrounds located at lakes or reservoirs that are under the
jurisdiction of USACE. Types of allowable fees include daily use fees, admission fees,
recreational fees, annual pass fees, and other permit type fees. The receipts are used for
the operation and maintenance of the recreational sites.

Hydraulic Mining in California, Debris, 33 USC 683. Operators of hydraulic mines
through which debris flows in part or in whole to a body restrained by a dam or other work
erected by the California Debris Commission are required to pay an annual tax as
determined by the Commission. Taxes imposed under this code are collected and expended
under the supervision of USACE and the direction of the Department of the Army. The funds
are used for repayment of funds advanced by the Federal government or other agencies for
construction, restraining works, settling reservoirs, and maintenance.

Payments to States, Flood Control Act of 1954, 33 USC 701c-3. Seventy-five percent
of all funds received and deposited from the leasing of lands acquired by the United States
for flood control, navigation, and allied purposes (including the development of hydroelectric
power) are returned to the state in which the property is located. USACE collects lease
receipts into a receipt account. Funds are appropriated for the amount of receipts the
following fiscal year. The funds may be expended by the states for the benefit of public
schools and public roads of the counties in which such property is situated, or for defraying
any of the expenses of county government.

Maintenance and Operation of Dams and Other Improvements of Navigable
Waters, 16 USC 803(f) and 810. When a reservoir or other improvement is constructed
by the U.S., the Federal Energy Regulatory Commission (FERC) assesses charges against
licensees directly benefited. The statute requires all proceeds from any Indian reservation
be placed to the credit of the Indians of the reservation. All other charges arising from
licenses, except those charges established by the FERC for administrative reimbursement,
are paid to the U.S. Treasury and allocated for specific uses. The Army is allocated
50 percent of charges from all licenses, except licenses for the occupancy and use of public
lands and national forests. These funds are deposited in a special fund and used for
maintenance, operation, and improvement of dams and other navigation structures that are
owned by the United States, or in construction, maintenance, or operation of headwater, or
other improvements to navigable waters of the United States.
Fund for Non-Federal Use of Disposal Facilities (for dredged material),
33 USC 2326. Any dredged material disposal facility under the jurisdiction of, or managed
by, the Secretary of the Army may be used by a non-Federal interest if the Secretary

                                                                        Financial Information
                                             132
Department of Defense Agency Financial Report for FY 2012


determines that such use will not reduce the availability of the facility for project purposes.
Fees may be imposed to recover capital, operation, and maintenance costs associated with
such use. Any monies received through collection of fees under this law shall be available
to, and used by, the Secretary of the Army for the operation and maintenance of the
disposal facility from which the fees were collected.
Coastal Wetlands Restoration Trust Fund and Costal Wetlands Planning,
Protection, and Restoration Act, 16 USC 3951-3956. USACE (along with the
Environmental Protection Agency, and the Fish and Wildlife Service) is granted the authority
to work with the State of Louisiana to develop, review, evaluate, and approve a plan to
achieve a goal of “no net loss of wetlands” in coastal Louisiana. USACE is also responsible
for allocating funds among the named task force members. Federal contributions are
established at 75 percent of project costs or 85 percent if the state has an approved Coastal
Wetlands Conservation Plan.
Rivers and Harbors Contributed and Advance Funds, 33 USC 701h, 702f, and 703.
Whenever any state or political subdivision offers to advance funds for a flood control
project duly adopted and authorized by law, the Secretary of the Army may, in his
discretion, receive such funds and expend them in the immediate prosecution of such work.
The funding may be used to construct, improve, and maintain levees, water outlets, flood
control, debris removal, rectification and enlargement of river channels, etc. in the course of
flood control and river and harbor maintenance.

Inland Waterways Trust Fund, 26 USC 9506. This law made the Inland Waterways
Trust Fund available for USACE expenditures for navigation, construction, and rehabilitation
projects on inland waterways. Collections for excise taxes from the public are made into the
Trust Fund. The collections are invested and investment activity is managed by the BPD.
The BPD purchases and redeems nonmarketable market-based securities. Investments
include one-day certificates, bonds, and notes.

Harbor Maintenance Trust Fund, 26 USC 9505. The USACE Civil Works mission is
funded by the Energy and Water Development Appropriations Act. The Water Resources
Development Act of 1986 covers a portion of USACE operations and maintenance costs for
deep draft navigation. The Harbor Maintenance Trust Fund is available for making
expenditures to carry out the functions specified in the Act and for the payment of all
expenses of administration incurred by the U.S. Treasury, USACE, and the Department of
Commerce. Collections are made into the Trust Fund from taxes collected from imports,
domestics, passengers, and foreign trade. The collections are invested and investment
activity is managed by the Bureau of Public Debt.

Foreign National Employees Separation Pay Account Trust Fund, 10 USC 1581. This
fund makes payments from amounts obligated by the Secretary of Defense that remain
unexpended for separation pay for foreign national employees of the Department. The
foreign national employees’ separation pay funded by Foreign Military Sales administrative
funds is maintained as a separate fund.

Defense Commissary Agency Surcharge Trust Fund, 10 USC 2685. This fund was
established as the repository for the surcharge on sales of commissary goods paid for by
authorized patrons to finance certain operating expenses and capital purchases of the


                                                                         Financial Information
                                             133
Department of Defense Agency Financial Report for FY 2012


Commissary System, which are precluded by law from being paid with appropriated funds.
Most Surcharge revenue is generated by the 5 percent surcharge applied to each sale.
These funds may be used to pay for commissary store-related information technology
investments, to purchase commissary equipment, to finance advance design modifications
to prior year projects, for both minor and major construction projects, and to maintain and
repair commissary facilities and equipment.

Education Benefit Fund, 10 USC 2006. This fund was established to finance, on an
actuarially sound basis, the liabilities of the Department’s education benefit programs for
current and former active duty, guard, and reserve members of the armed forces, and
members of the Coast Guard. Financing sources for the Education Benefit Fund are interest
earnings on Fund assets and monthly Department contributions.
Voluntary Separation Incentive Fund, 10 USC 1175. This fund was established to
finance, on an actuarially sound basis, the liabilities of the Department’s incentive program
for early separation from military service. Financing sources for the Voluntary Separation
Incentive Fund are interest earnings on Fund assets and annual Department contributions.

Military Housing Privatization Initiative, Public Law 104-106, Section 2801. The
Military Housing Privatization Initiative (MHPI) includes both direct loan and loan guarantee
programs, is authorized by the National Defense Authorization Act for FY 1996, and includes
a series of authorities that allow the Department to work with the private sector to renovate
and build military family housing. The MHPI accelerates the construction of new housing
built to market standard and leverages private sector capital with government dollars. The
Department provides protection to the private sector partner against specific risks, such as
base closure or member deployment.

Armament Retooling and Manufacturing Support Initiative, 10 USC 4551-4555. The
Armament Retooling and Manufacturing Support Initiative is a loan guarantee program
designed to incentivize commercial use of the Army's inactive ammunition plants for
businesses willing to locate to a government ammunition production facility. The production
capacity of these facilities is greater than current military requirements; however, this
capacity may be needed in the future. Revenue from property rentals are used to pay for
the operation, maintenance and environmental cleanup at the facilities.

NOTE 24. FIDUCIARY ACTIVITIES
 Schedule of Fiduciary Activity                                                 Dollars in Millions
 As of September 30                                               2012                2011
 Fiduciary net assets, beginning of year                      $         199.5   $            178.9
 Contributions                                                          222.5                282.5
 Investment earnings                                                     15.2                 18.0
 Distributions to and on behalf of beneficiaries                      (278.5)              (279.9)
 Increase/(Decrease) in fiduciary net assets                           (40.8)                 20.6
 Fiduciary net assets, end of period                          $         158.7   $            199.5




                                                                         Financial Information
                                                   134
Department of Defense Agency Financial Report for FY 2012


 Schedule of Fiduciary Net Assets                                                            Dollars in Millions
 As of September 30                                                         2012                     2011
 Fiduciary Assets
   Cash and cash equivalents                                        $              158.7     $              199.5
 Total Fiduciary Net Assets                                         $              158.7     $              199.5


Fiduciary activities exist when the Department has collected, received, held, or made
disposition of assets on behalf of an individual or non-Federal entity. Fiduciary assets are
not recognized on the Balance Sheet.

Public Law 89-538 authorized the Department, through the Savings Deposit Program, to
collect voluntary contributions from members of the Armed Forces serving in designated
areas. These contributions and earned interest are deposited in the U.S. Treasury on behalf
of the members.

NOTE 25. OTHER DISCLOSURES
 Other Disclosures                                                                               Dollars in Millions
                                                                 2012 – Asset Category
                                              Land and
                                                                Equipment           Other              Total
 As of September 30                           Buildings
 Entity as Lessee – Operating Leases
   Future Payments Due
   Fiscal Year 2013                       $           551.3 $            67.0 $             16.3 $            634.6
   Fiscal Year 2014                                   551.6              67.9               16.3              635.8
   Fiscal Year 2015                                   567.7              68.2               16.3              652.2
   Fiscal Year 2016                                   570.2              68.3               16.5              655.0
   Fiscal Year 2017                                   537.0              67.9               16.6              621.5
   After 5 Years                                      956.1               2.4               16.9              975.4
 Total Future Lease Payments Due          $         3,733.9 $           341.7 $             98.9 $          4,174.5


Operating leases are leases that do not transfer all the benefits and risks of ownership of
capital leases. Payments are charged as expenses over the lease term. Office space is the
largest component of land and building leases. Other leases are primarily made up of
commercial leases. Commercial leases are leases made by the Department with the general
public. These would include leases with dealerships, car rental companies, or any other such
entity that provides care leasing services. Future year cost projections use the Consumer
Price Index.

NOTE 26. RESTATEMENTS
The Department restated its financial statements as of September 30, 2011, to correct
errors in assets, gross costs, and net position identified during ongoing audit readiness
efforts.

The Department corrected a $1.0 billion understatement of General Property, Plant and
Equipment to align the accounting records to the property accountability system and a
$955.1 million overstatement of Other Assets (With the Public). This correction increased
General Property, Plant and Equipment, Net and Cumulative Results of Operations on the


                                                                                   Financial Information
                                              135
Department of Defense Agency Financial Report for FY 2012


Balance Sheet; Gross Costs on the Statement of Net Cost; and Net Cost of Operations and
Cumulative Results of Operations on the Statement of Changes in Net Position. The
correction also decreased Other Assets (With the Public) and Unexpended Appropriations on
the Balance Sheet; and Unexpended Appropriations on the Statement of Changes in Net
Position. The following notes were restated: Note 2, Nonentity Assets; Note 6, Other Assets;
Note 10, General Property, Plant and Equipment, Net; Note 18, General Disclosures Related
to the Statement of Net Cost; Note 19, Disclosures Related to the Statement of Changes in
Net Position; Note 20, Disclosures Related to the Statement of Budgetary Resources; and
Note 21, Reconciliation of Net Cost of Operations to Budget.
Effect on FY 2012 Beginning Cumulative Results of Operations and Unexpended
Appropriations:

 FY 2012 Statement of Changes in Net Position                                    Dollars in Billions
 CUMULATIVE RESULTS OF OPERATIONS
 Correction of Errors (+/-)                                                  $                   1.0
 Beginning balance adjustments                                               $                   1.0

 UNEXPENDED APPROPRIATIONS
 Correction of Errors                                                        $                 (0.9)
 Beginning balance adjustments                                               $                 (0.9)

Effect on Comparative Balances

 FY 2011 Balance Sheet                                                           Dollars in Billions
 General Property, Plant and Equipment, Net                                  $                   1.0
 Intragovernmental Other Assets                                              $                 (0.9)
 Total Assets                                                                $                   0.1

 Unexpended Appropriations – Other                                           $                 (0.9)
 Cumulative Results of Operations – Other                                    $                   1.0
 Net Position                                                                $                   0.1
 Total Liabilities and Net Position                                          $                   0.1
 FY 2011 Statement of Net Cost                                                   Dollars in Billions
 Gross Costs                                                                 $                   0.1
 Net Cost of Operations                                                      $                   0.1




                                                                       Financial Information
                                                136
Department of Defense Agency Financial Report for FY 2012


FY 2011 Statement of Changes in Net Position                          Dollars in Billions
CUMULATIVE RESULTS OF OPERATIONS
Corrections of Errors (+/-)                                       $                   1.1
Beginning balance adjustments                                     $                   1.1

Other Financing Sources:
Net Cost of Operations                                            $                   0.1
Net Change                                                        $                 (0.1)
Cumulative Results of Operations                                  $                   1.0

UNEXPENDED APPROPRIATIONS
Correction of Errors                                              $                 (0.9)
Beginning balance adjustments                                     $                 (0.9)
Unexpended Appropriations                                         $                 (0.9)

  Net Position                                                    $                   0.1




                                                            Financial Information
                                               137
Department of Defense Agency Financial Report for FY 2012


REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
Federal financial reporting requires DoD to report on its stewardship over certain resources
that cannot be measured in traditional financial reports. These resources do not meet the
criteria for assets and liabilities required to be reported in the financial statements, but are
important to understand the operations and financial condition of DoD at the date of the
financial statements and in subsequent periods.

The Department’s stewardship investments are comprised of, and are measured in terms of,
expenses incurred for: (1) Non-Federal Physical Property (federally-financed, but not
federally owned), and (2) federally-financed Research and Development (R&D). Information
on additional reporting requirements for non-Federal Physical Property and R&D follows.

NON-FEDERAL PHYSICAL PROPERTY
The Non-Federal Physical Property investments support the purchase, construction, or major
renovation of physical property owned by state and local governments. In addition, Non-
Federal Physical Property investments include federally-owned physical property transferred
to state and local governments. The Department participates in cost-sharing agreements
with non-Federal sponsors which are governed under numerous Water Resources
Development Acts. The Department’s transferred assets include expenditures supporting the
design, build, and construction services/management for the missions of commercial
navigation, flood/storm damage reduction, hydropower, regulatory, environmental,
recreation and water supply.

 Non-Federal Physical Property
 Department of Defense Consolidated – Non-Federal Physical Property
 Yearly Investments in State and Local Governments
 For Fiscal Years 2012 through 2008                                                                           Dollars in Millions
              Categories                        2012                 2011            2010            2009             2008
 Transferred Assets:
 National Defense Mission Related           $        1,445.4   $       2,304.5   $     2,126.2   $      1,224.7   $      1,169.2
 Funded Assets:
 National Defense Mission Related           $            7.7   $          12.0   $         0.0   $         26.7   $        1 9.6
 Total                                      $        1,453.1   $       2,316.5   $     2,126.2   $      1,251.4   $      1,188.8

INVESTMENTS IN RESEARCH AND DEVELOPMENT
Investment values included in this report are based on R&D expenditures. The R&D
programs are classified in the following categories: Basic Research, Applied Research, and
Development. The amounts reported in the Investments in R&D table show outlays from
FY 2008 – FY 2012 for all DoD Components. Through efforts to improve the quality of
reported data, the FY 2008 through FY2012 values have been updated to include
investments reported by the Defense Health Program and the DoD Inspector General (the
entity). These investment values were not reported in FY 2011. The definition for each
type of R&D Category and Subcategories are explained below.

Basic Research is the systematic study to gain knowledge or understanding of the
fundamental aspects of phenomena and of observable facts without specific applications,
processes, or products in mind. Basic Research involves the gathering of a fuller knowledge


                                                                                                     Financial Information
                                                               138
Department of Defense Agency Financial Report for FY 2012


or understanding of the subject under study. Major outputs are scientific studies and
research papers.

Applied Research is the systematic study to gain knowledge or understanding necessary for
determining the means by which a recognized and specific need may be met. It is the
practical application of such knowledge or understanding for the purpose of meeting a
recognized need. This research points toward specific military needs with a view toward
developing and evaluating the feasibility and practicability of proposed solutions and
determining their parameters. Major outputs are scientific studies, investigations, research
papers, hardware components, software codes, or limited construction of a weapon system
component, to include non-system-specific development efforts. Development takes what
has been discovered or learned from basic and applied research and uses it to establish
technological feasibility, assessment of operability, and production capability. Development
consists of the five stages defined in the Investments in R&D table.
Advanced Technology Development is the systematic use of the knowledge or
understanding gained from research and directed toward proof of concept and feasibility
rather than directed toward the development of hardware for service use. It employs
demonstration activities intended to test a technology or method.
Advanced Component Development and Prototypes evaluates integrated technologies in an
operating environment as realistic as possible to assess the performance or cost reduction
potential of advanced technology. Programs in this phase are generally system specific.
Major outputs of Advanced Component Development and Prototypes are hardware and
software components and complete weapon systems ready for operational and
developmental testing and field use.

System Development and Demonstration concludes the program or project and prepares it
for production. It consists primarily of preproduction efforts, such as logistics and repair
studies. Major outputs are weapons systems finalized for complete operational and
developmental testing.

Research, Development, Test, and Evaluation Management Support bolsters installations
and operations for general research and development use. This category includes costs
associated with test ranges, military construction maintenance support for laboratories,
operation and maintenance of test aircraft and ships, and studies and analyses furthering
the Research and Development program.

Operational Systems Development finances projects, programs or upgrades in engineering
and manufacturing development stages which have received approval for production,
including production funds that have been budgeted in subsequent fiscal years.




                                                                       Financial Information
                                            139
Department of Defense Agency Financial Report for FY 2012


Investments in Research and Development (R&D)
Department of Defense Consolidated
Yearly Investments in State and Local Governments
For the Current and Four Preceding Fiscal Years                                                             Dollars in Millions
           Categories                          2012                 2011           2010          2009              2008
Basic Research                             $    1,645.3        $     1,816.6   $     1,805.5   $    821.0      $     1,346.4
Applied Research                                5,819.3              6,848.3         5,758.4      2,604.6            4,260.9
Development
 Advanced Technology Development
                                                    5,868.0          6,024.3         6,353.4      2,263.2            6,032.7

 Advanced Component Development
                                               13,005.0             13,964.2       14,304.6      12,148.3           15,410.6
 and Prototypes
 System Development and
                                               11,926.3             13,882.0       15,156.7      21,501.9           18,052.9
 Demonstration
 Research, Development, Test and
                                                    5,640.5          5,659.2         5,503.6      5,141.3            5,471.0
 Evaluation Management Support
 Operational Systems Development               23,274.6             23,861.3       23,986.2      42,450.6           20,246.7
Totals:                                    $   67,179.0        $    72,055.9   $   72,868.4    $ 86,930.9      $    70,821.2




                                                                                               Financial Information
                                                              140
Department of Defense Agency Financial Report for FY 2012


REQUIRED SUPPLEMENTARY INFORMATION

REAL PROPERTY DEFERRED MAINTENANCE AND REPAIRS
This section includes the deferred maintenance and repairs information and Statement of
Disaggregated Budgetary Resources.

    Real Property Deferred Maintenance and Repairs
    For Fiscal Year Ended September 30, 2012                                                 Dollars in Millions
                                                                          Current Fiscal Year
                                                                            2. Required Work
                                                                 1. Plant
                               Property Type                                    (Deferred
                                                               Replacement                   3. Percentage
                                                                             Maintenance &
                                                                  Value
                                                                                 Repair)
        1. Category 1                                      $        939,394 $      103,708                11%
        2. Category 2                                      $         28,864 $        5,870                20%
        3. Category 3                                      $         21,493 $        1,567                 7%


The deferred maintenance and repairs amount is based on facility Q-ratings found in the
Department’s real property inventory. Q-ratings represent work needed to bring a facility to
a fully serviceable condition with no repair needs. The reported deferred maintenance is the
difference between the facility Q-rating and the target Q-rating that represents the
acceptable operating condition established by each Component within the Department. The
percentage column reflects the percent of total plant replacement value for each category
represented by deferred maintenance.

Facility Categories are as follows:

•      Category 1: Buildings, Structures, and Utilities that are enduring and required to support
       an ongoing mission, including multi-use Heritage Assets.




                                                                                Financial Information
                                                141
Department of Defense Agency Financial Report for FY 2012


•      Category 2: Buildings, Structures, and Utilities that are excess to requirements or
       planned for replacement or disposal, including multi-use Heritage Assets.

•      Category 3: Buildings, Structures, and Utilities that are Heritage Assets.

Military Equipment Deferred Maintenance and repairs
Depot maintenance requirements for military equipment are developed during the annual
budget process. The table below shows the deferred unfunded requirements for the depot
maintenance program.

    Military Equipment Deferred Maintenance and Repairs
    For Fiscal Year Ended September 30, 2012
    Major Categories                                                                Dollars in Millions
    1. Aircraft                                                                     $             456.8
    2. Automotive Equipment                                                         $              84.2
    3. Combat Vehicles                                                              $              37.9
    4. Construction Equipment                                                       $              32.9
    5. Electronics and Communications Systems                                       $              80.3
    6. Missiles                                                                     $             257.7
    7. Ships                                                                        $             131.0
    8. Ordnance Weapons and Munitions                                               $              63.1
    9. General Purpose Equipment                                                    $              11.4
    10. All Other Items Not Identified to above Categories                          $              42.5
    Total                                                                           $           1,197.8




                                                                            Financial Information
                                                             142
Department of Defense Agency Financial Report for FY 2012


Statement of Disaggregated
                                                                                                                           2012
Budgetary Resources
For the Years Ended                                                               Research,
                                                                                                    Family Housing/       Military                                Operations,
September 30                                 Military                            Development,
                                                              Procurement                              Military          Retirement           Civil Works         Readiness &         2012 Combined        2011 Combined
                                            Personnel                              Test and
                                                                                                     Construction         Benefits                                  Support
Dollars in Millions                                                               Evaluation
Budgetary Resources
Unobligated balance, brought
                                        $         1,641.5 $         75.579.6 $         18,012.9 $           15,817.3 $                0.0 $          8,528.5 $          42,691.3 $          162,271.1 $          160,032.1
forward, October 1
  Unobligated balance brought
                                                  1,641.5           75.579.6           18,012.9             15,817.3                  0.0            8,528.5            42,691.3            162,271.1            160,032.1
  forward, October 1, as adjusted
Recoveries of prior year unpaid
                                                 14,009.1           14,351.9             3,461.6             3,120.5                  0.0               93.5            30,497.3             65,533.9             56,015.4
obligations
Other changes in unobligated
                                                  (907.9)            (581.7)             (907.0)               (83.9)                 0.0               (1.7)          (10,469.9)           (12,952.1)           (11,205.6)
balance
Unobligated balance from prior year
                                                 14,742.7           89,349.8           20,567.5             18,853.9                  0.0            8,620.3            62,718.7            214,852.9            204,841.9
budget authority, net
Appropriations (discretionary and
                                                152,975.9          114,505.5           68,523.5             10,627.7           61,231.6              7,641.8           376,672.8            792,178.8            829,461.3
mandatory)
Borrowing Authority (discretionary
                                                        0.0              0.0                 0.0                 0.0                  0.0                   0.0                 0.0                0.0                  0.0
and mandatory)
Contract Authority (discretionary and
                                                        0.0              0.0                 0.0                 0.0                  0.0                   0.0         80,486.2             80,486.2             75,760.9
mandatory)
Spending Authority from offsetting
collections (discretionary and                    1,182.6            3,275.5             9,629.4             9,567.4                  0.0,          10,699.0            82,888.5            117,242.4            121,426.6
mandatory)
Total Budgetary Resources               $       168,901.2 $        207,130.8 $         98,720.4 $           39,049.0 $         61,231.6 $           26,961.1 $         602,766.2 $         1,204,760.3 $        1,231,490.7
Status of Budgetary Resources:
Obligations Incurred                            166,437.4          143,783.1           83,516.5             22,991.1           61,231.6             18,351.0           562,757.1           1,059,067.8          1,069,218.2
Unobligated balance, end of year:
  Apportioned                                       616.5           59,276.9           13,570.7             15,230.8                  0.0            7,412.0            19,589.2            115,696.1            137,148.4
  Exempt from Apportionment                           0.0                0.0                0.0                  0.0                  0.0            1,184.2             2,791.9              3,976.1              4,180.3
  Unapportioned                                   1,847.3            4,070.8            1,633.2                827.1                  0.0               13.9            17,628.0             26,020.3             20,943.8
Unobligated balance brought
                                        $         2,463.8 $         63,347.7 $         15,203.9 $           16,057.9 $                0.0 $          8,610.1 $          40,009.1 $          145,692.5 $          162,272.5
forward, end of year
Total Budgetary Resources               $       168,901.2 $        207,130.8 $         98,720.4 $           39,049.0 $         61,231.6 $           26,961.1 $         602,766.2 $         1,204,760.3 $        1,231,490.7




                                                                                                                                                                                      Financial Information
                                                                                                         143
Department of Defense Agency Financial Report for FY 2012


Statement of Budgetary
                                                                                                                             2012
Resources
For the Years Ended                                                                  Research,
                                                                                                      Family Housing/       Military                              Operations,
September 30                                    Military                            Development,
                                                                 Procurement                             Military          Retirement         Civil Works         Readiness &         2012 Combined       2011 Combined
                                               Personnel                              Test and
                                                                                                       Construction         Benefits                                Support
Dollars in Millions                                                                  Evaluation
Change in Obligated Balance
Unpaid obligations, brought forward,
                                           $         7,648.2 $        147,138.7 $         43,453.6 $          29,244.6 $            868.2 $         10,405.5 $         216,167.4 $          454,926.2 $         458,620.6
October 1 (Gross)
Uncollected customer payments for
Federal Sources, brought forward,                    (155.0)           (4,264.6)          (5,126.6)          (11.811.6)                 0.0         (3,097.7)          (50,728.8)           (75,184.3)          (69,766.8)
October 1
  Obligated balance start of year (net),
                                                     7,493.2          142,874.1           38,327.0            17,433.0              868.2            7,307.8           165,438.6            379,741.9           388,853.8
  before adjustments
Obligated balance, start of year (net),
                                                     7,493.2          142,874.1           38,327.0            17,433.0              868.2            7,307.8           165,438.6            379,741.9           388,853.8
as adjusted
Obligations incurred                               166,437.4           143,783.1           83,516.5            22,991.1          61,231.6            18,351.0           562,757.1         1,059,067.8          1,069,218.2
Outlays (gross)                                  (148,100.8)         (125,100.4)         (75,796.2)          (20,584.4)        (57,456.6)          (20,288.3)         (532,563.2)         (979,889.9)        (1,016,898.9)
Change in uncollected customer
                                                        28.2               25.1             (593.8)             (466.3)                 0.0            921.0            (2,683.3)            (2,769.1)           (5,417.5)
payments from Federal Sources)
Actual Transfers, unpaid obligations
                                                           0.0              0.0                0.0                 0.0                  0.0                 0.0                 0.0                0.0                 0.0
(net)
Recoveries of prior year unpaid
                                                  (14,009.1)          (14,351.9)          (3,461.5)           (3,120.5)                 0.0            (93.5)          (30,497.4)           (65,533.9)          (56,015.1)
obligations
Obligated balance, end of year
  Unpaid Obligations, end of year
                                                    11,975.7          151,469.5           47,712.4            28,530.8            4,643.2            8,374.7           215,863.9            468,570.2           454,924.8
  (gross)
  Uncollected customer payments
                                                     (126.8)           (4,239.5)          (5,720.4)          (12,277.9)                 0.0         (2,176.7)          (53,412.1)           (77,953.4)          (75,184.3)
  from Federal Sources, end of year
Obligated balance, end or year
                                           $        11,848.9 $        147,230.0 $         41,992.0 $          16,252.9 $          4,643.2 $          6,198.0 $         162,451.8 $          390,616.8 $         379,740.5
(net)
Budget Authority and Outlays, Net:
Budget Authority, gross (discretionary
                                           $       154,158.5 $        117,781.0 $         78,152.9 $          20,195.1 $        61,231.6 $          18,340.8 $         540,047.5 $          989,907.4 $       1,026,648.8
and mandatory)
Actual offsetting collections
                                                   (1,210.8)           (3,300.6)          (9,035.5)           (9,101.1)                 0.0        (11,953.7)         (155,984.3)          (190,586.0)         (190,906.0)
(discretionary and mandatory )
Change in uncollected customer
payments from Federal Sources                           28.2               25.1             (593.8)             (466.3)                 0.0            921.0            (2,683.3)            (2,769.1)           (5,417.5)
(discretionary and mandatory)
Anticipated offsetting collections
                                                           0.0              0.0                0.0                 0.0                  0.0                 0.0                 0.0                0.0                 0.0
(discretionary and mandatory)
Budget authority, net
                                           $       152,975.9 $        114,505.5 $         68,523.6 $          10,627.7 $        61,231.6 $           7,308.1 $         381,379.9 $          796,552.3 $         830,325.3
(discretionary and mandatory)




                                                                                                                                                                                      Financial Information
                                                                                                          144
Department of Defense Agency Financial Report for FY 2012


Statement of Budgetary
                                                                                                                     2012
Resources
For the Years Ended                                                          Research,
                                                                                              Family Housing/       Military                             Operations,
September 30                            Military                            Development,
                                                         Procurement                             Military          Retirement         Civil Works        Readiness &        2012 Combined       2011 Combined
                                       Personnel                              Test and
                                                                                               Construction         Benefits                               Support
Dollars in Millions                                                          Evaluation
Outlays, gross (discretionary and
                                   $       148,100.8 $        125,100.4 $         75,796.2 $          20,584.4 $        57,456.6 $          20,288.3 $        532,563.2 $         979,889.9 $       1,016,898.9
mandatory)
Actual offsetting collections
                                           (1,210.8)           (3,300.6)          (9,035.5)           (9,101.1)                 0.0        (11,953.7)        (155,984.3)         (190,586.0)         (190,906.0)
(discretionary and mandatory)
Outlays, net (discretionary and
                                           146,890.0          121,799.8           66,760.7            11,483.3          57,456.6             8,334.6          376,578.9           789,303.9           825,992.9
mandatory)
Distributed offsetting receipts                    0.0              0.0                0.0                 0.0         (77,647.4)             (552.6)          (1,038.4)          (79,238.4)          (83,198.6)
Agency outlays, net (discretionary
                                   $       146,890.0 $        121,799.8 $         66,760.7 $          11,483.3 $       (20,190.8) $         (7,782.0 $        375,540.5 $         710,065.5 $         742.794.3
and mandatory)




                                                                                                                                                                            Financial Information
                                                                                                  145
Department of Defense Agency Financial Report for FY 2012


Combined Statement of
                                                             Non Budgetary
Budgetary Resources
For the Years ended September 30         Other               2012 Combined          2011 Combined
Dollars in Millions
Budgetary Resources
Unobligated balance, brought
                                     $            17.5   $              17.5    $              24.9
forward, October 1
  Unobligated balance brought
                                     $            17.5   $              17.5    $              24.9
  forward, October 1, as adjusted
Recoveries of prior year unpaid
                                                   0.0                   0.0                    0.0
obligations
Other changes in unobligated
                                                   0.0                   0.0                    0.0
balance
Unobligated balance from prior
                                                  17.5                  17.5                   24.9
year budget authority, net
Appropriations (discretionary and
                                                   0.0                   0.0                    0.0
mandatory)
Borrowing Authority (discretionary
                                                 172.6                 172.6                  229.8
and mandatory)
Contract Authority (discretionary
                                                   0.0                   0.0                    0.0
and mandatory)
Spending Authority from offsetting
collections (discretionary and                    62.6                  62.6                   88.3
mandatory)
Total Budgetary Resources            $           252.7   $             252.7    $             343.0
Status of Budgetary Resources:
Obligations Incurred                 $           237.2   $             237.2    $             326.8
Unobligated balance, end of year:
  Apportioned                                      1.6                   1.6                    0.1
  Exempt from Apportionment                        0.0                   0.0                    0.0
  Unapportioned                                   13.9                  13.9                   16.1
Unobligated balance brought
                                     $            15.5   $              15.5    $              16.2
forward, end of year
Total Budgetary Resources            $           252.7   $             252.7    $             343.0




                                                                               Financial Information
                                                 146
Department of Defense Agency Financial Report for FY 2012


Statement of Disaggregated
                                                               Non Budgetary
Budgetary Resources
For the Years ended September 30         Other                 2012 Combined           2011 Combined
Dollars in Millions
Change in Obligated Balance
Unpaid obligations, brought
                                     $            569.1    $             569.1     $             619.4
forward, October 1 (Gross)
Uncollected customer payments for
Federal Sources, brought forward,                 (99.9)                 (99.9)                  (97.3)
October 1
  Obligated balance start of year
                                                  469.2                  469.2                   522.1
  (net), before adjustments
Obligated balance, start of year
                                                  469.2                  469.2                   522.1
(net), as adjusted
Obligations incurred                               237.2                  237.2                   326.8
Outlays (gross)                                  (264.5)                (264.5)                 (375.3)
Change in uncollected customer
                                                   16.4                   16.4                    (2.6)
payments from Federal Sources
Actual Transfers, unpaid
                                                    0.0                    0.0                     0.0
obligations (net)
Recoveries of prior year unpaid
                                                    0.0                    0.0                     0.0
obligations
Obligated balance, end of year
  Unpaid Obligations, end of year
                                                  541.8                  541.8                   570.9
  (gross)
  Uncollected customer payments
  from Federal Sources, end of                    (83.5)                 (83.5)                  (99.9)
  year
Obligated balance, end or year
                                     $            458.3    $             458.3     $             471.0
(net)
Budget Authority and Outlays, Net:
Budget Authority, gross
                                                  235.2                  235.2                   318.1
(discretionary and mandatory)
Actual offsetting collections
                                                  (92.6)                 (92.6)                 (102.6)
(discretionary and Mandatory)
Change in uncollected customer
payments from Federal Sources                      16.4                   16.4                    (2.6)
(discretionary and mandatory)
Anticipated offsetting collections
                                                    0.0                    0.0                     0.0
(discretionary and mandatory)
Budget authority, net
                                     $            159.0    $             159.0     $             212.9
(discretionary and mandatory)
Outlays, gross (discretionary and
                                                  264.5                  264.5                   375.3
mandatory)
Actual offsetting collections
                                                  (92.6)                 (92.6)                 (102.6)
(discretionary and mandatory)
Outlays, net (discretionary and
                                                  171.9                  171.9                   272.7
mandatory)
Distributed offsetting receipts                     0.0                    0.0                     0.0
Agency outlays, net
                                     $            171.9    $             171.9     $             272.7
(discretionary and mandatory)




                                                                                  Financial Information
                                                 147
Department of Defense Agency Financial Report for FY 2012




                        This Page Left Blank Intentionally




                                                             Financial Information
                                       148
